. .\ - ,   ,'"




                    ST            A T.     INVESTIGATION OF FRAUD



                              IN THE AID TO FAMILIES WITH



                 DEPENDENT CHILDREN (AFDC) PROGRAM





                  OFFICE OF INSPECTOR GENERAL
                         OFFICE      OF   ANALYSIS AND INSPECTIONS



                                                                     NOVEMBER 1987
                                        OPPCE . OF mSPECTR

   The mission ot the ottic. ot Inspector General (OIG) is to
   proote the etticiency, etteciveness and
             Stat- Depart
   in the United
    (BB). It                            Hum
                                              integrity ot programs
                                    ot Heath and                Services
                ths Crted
              does
   traud, wae and abuse.by developing method to detect and prevent
  Inpecor Geerl kas
     cuently
   and
                             Secta
                           both the
                          rorAJ
                                     by statute in 1976, the
                                          or magement problemtully
                                               and the Conqress


  racmcl audts,
   ccnductinq
                 intormed about p
            rrecvin88qations an p8rorm its
                       e acton.. The OJ:G                       mission
                                                                         and
                                                                        by
  approxitey 1,       sttaicaly inecions    with
  coutr                           located around the
                                200         sttt




                               Ol"CB OF 
             AJT.     DAH IHPEC'OHS
 Ths report
                           the th- major ottice
                         is          Anlysis and Inspections
                                  with
                              prouced by the ottice                          ot
   (OA),      one   ot

                      Awt an             the OJ:G. The other
 The OAI cauc inions whch are, tyicaly,   J:estigations.
 two are the             ottice ot                              the ottice            ot


 stues   designed to det8%e
                                               short-tent
                             1;aJ etteciveness, etticiency
 an vuarUi ty to trauc an abU8.
                                                       Bm




Aid to F
            inion,   entitled .State Imesiqation ot l"ud
                ies with Depeant Chc:en (AF) Pr,        II was
                                                                                                    in the
daic;ed to identity practice ua8d iD                                              detect,
                                                   inolv_ent will aidpro:
                                                                                  States to prevent,
inestiqate an pro.acte trauc in the                            AF            to identity
    aco.. raatory ,c:..
ar.. wher qrter HH
                                   1: imroe practices.
              the Stat..: and to

           ' report vas prepar by the Raqiona Inpecor Geeral,

             ot  Anysis and
the headquer SocialInecions,
attic.
                                         Raqion IV in conjunction
                                                         with
                    Secity Brach,   ottice ot
Insions. Paricipating in the proj ect were the following
                                              Analysis and
papla:
Chistopher Koeher, Proj                                     Lead.er               Douglas Kaall
Vince Serio,             Prj ec Liaison                                           Aler   Mace
James E. Cliatt,                 J:IJ:, Ph.
Kaia Bigha
Roar    Bro
                                                                                  Scott Patterson
                                                                                  Maelle Puell
Fernand.o Foyo
                                                                                  Alan Stubbs

Ronald. Xalil
                                                                                  Josiah Townel
                                                                                  James Wilson

                      STATE INTIGATION
                  FRUD IN TH AID TO FAMLIES
              WITH DEPEEN      CHLDRE (AF) PROG




RICH P.    KUSSEROW
INSPECTR   GEN                           NOVEER 1987

Control No. OAI-04-86-00066

                                                      . . .. .. .. .. .. .. .. .. .. .. .:.. . . . . . . . . . . . . . . . . .
                                              . . . . . . . .. .. .. .. .. . .. .. .. .. .. .. ... .. .. . .. .. ... .. .. . .. .. ... .. . . .




t \,





                                                                TABLE OF CONTENTS


        EXECUIVE                                     Y................................. 





        INTODUCTION
                      Purpose.                                                                                                                    ..1
                      Background.                                                                                                            Co . .



                      Methodoloqy.                                                                                                           81 . .




        FINDINGS
                      Extent             ot        AFDC                    Fraud.           . . . . . . . . . . . . . . . . . . . . . . . . 3



                      State Perception of AFDC Fraud............... 

                      Judicial Response to AFDC Fraud............ .


                      State Eftorts to Combat AFDC Fraud.......... 


        CONCLUSION.                     0 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1.7



                                                                                                            0 . . . . . . . . . . . . . . 

        RECOMMNDATIONS.




        APPENDICES

                      List ot States visited..................... . A-1
                      Instructions tor Form SSA 4110.............. B-1

                      Examples of Semiannual Fraud Statistics..... C-1

                      Methodoloqy of Computing Fraud Early
                      Detection and Prevention Program Cost
                      Avoidance savings........................... D-1

                      Response trom Family Support
                      Administration.                                                                                                              E-l
               STATE INTIGATION OF FRUD IN TH AID TO
        FAMLIES WITH DEPENEN CHLDRE (AFDC) PROG


                                              EXCUIV SUMY

PUSE:
        The purpose ot this inspection is to determine

        methods which States use to detect, investigate

        and prosecute traud in the Aid to Families with

        Dependent Children (AFDC) program and to identity

        areas where greater involvement by the Departent
        ot Health and Human Services (HH) would aid the
        States in combating traud.
BACKGROUN

        The purose           ot the AFDC program, as stated in
        ti tle            rv the social Security Act, is to
                                   ot

                                     ot dependent children in their
                                                                          turish
        encourage lithe care

        homes.. . by enabling each state to
        financial assistance and rehabilitation and other
            services.
        The AFDC is the tifth largest                                  HH program, with a
            Federal cost in 1985                           ot   $7. 9 billion. The program
            reached 3. 7 million tamilies consisting ot 11 million
            individuals in that same year. The AFDC is a
            cooperative program among Federal, State a d local
            governents, with state responsibilities including
            establishment and maintenance ot systems tor detec ing,
            investigating and prosecuting traud.
            Duing the                    this project, it
                                        research phase            ot

        became apparent that the States were interpreting
        traud difterently depending on the context in
        which the term was being used. When dealing with
        traud prosecutions, the States emphasized the need
        to establish an intentional misrepresentation of
        facts by the client. However, when traud.
        prevention was the objective, the States usually
        broadened their detini tion   ot     traud to include
        cases in which the client' s misrepresentation ot
        tacts may have been unintentional. As a result,
                     ot our study reflect that dual
                                                         traud.
        the tindings

        interpretation of           For the sake      ot                           clarity,
        we have used the broader detinition                                 ot   traud that
            includes unintentional misrepresentations ot tacts

            by clients for all our study findings and
            recommendations except those that deal only with

            prosecutions and/or sanctions.
, ,





       MAOR FIINGS:

             The AFDC traud is a billion dollar problem that is not
             responding to traditional approaches to combating fraud.
             It otten amounts to an interest-free loan tor
             perpetrators who tace little risk of prosecution or other
             punitive action.
             An emphasis on the prevention ot traud, combining the

             eligibility workers I experience and intuition with the
             investigators' skills to identity and weed out
             misinformation in the preeligibili ty stage , would save
             approximately $800 million annually in Federal and state
             cost avoidances. One model for this concept which has
             been success tully operated is the Orange County,
             Calitornia Fraud Early Detection and Prevention Program.
             It has been success tully transterred to many other
             jurisdictions throughout Calitornia and the nation.
             Computerized eligibility veritication has become a key
             tool in detecting traud even though the 1984 Detici
             Reduction Act (DEFR) mandate tor automated eligibility
             veritications only recently has taken eftect. A wide
             variety of computer data matches are being conducted in
             States.  Other ettective matches could be made, but
             problems exist over inter-jurisdictional access to data.
             The low priority AFDC traud detection receives in many

             states may be attributable, in part, to the absence of

             national leadership, guidance and assistance trom HH.
             The incidence ot actual AFDC traud cannot be accurately

             determined with existing data collection methods;

             however, experts agree it is consistently understated.


             The AFDC program has no provision, such as those in the

             Food Stamp program, providing for administrative

             sanctions against perpetrators   ot   traud.
             Other than the normal administrative cost sharing, there

             are no tinancial incentives tor the states to

             aggressively detect traud and recover traud related

             overpayments. In tact, states could tace increased

             sanctions it such detection ettorts added to the error

             rate.
       Training in AFDC fraud prevention, detection and

       prosecution is considered inadequate in most states.


        Little publicity is given to AFDC fraud detection

        and prosecution.

RECOMMATIONS:
Based on our findings, we recommend that the Administrator,
Family Support Administration (FSA):
       Revise regulations (45 CFR 235) to require that states

       implement a preeligibili ty fraud detection and prevention

       program, similar to the Orange County, California

       program, as a condition of state plan approval.

        Consolidate FSA I S antifraud efforts into one
       component with high visibility. This component

       should have the responsbili ty to work closely with
       states,' both directly and though the United Council
       on Welfare Fraud, to more sharply focus management
       attention on the prevention, deterrence and
       detection of fraud through the development of:
            an improved fraud reporting mechanism that collects
            useful information on the incidence and nature of
            fraud prevention, detection, prosecution and
            overpayment recovery activities, and provides timely,
            meaningful feedback to the states on statistical data
            as well as narrative descriptions of innovative
            antif aud techniques;
            a broad spectru OI training and information packages
            to upgrade the skills of AFDC workers in combating
            fraud as well as to increase judicial and public
            awareness of the significance of AFDC fraud and the
            positive steps being taken to combat it; and
            a centralized information access center aimed at

            improving state access to and use of available

            Federal, state and private records to facilitate

            the timely verification of eligibility factors in

            order to prevent fraud and demonstrate Federal

            leadership.


                               iii

.. . . .                         . . ..




                                              INTRODUCTION
PUSE
The purpose of this inspection  is to determine methods which
states use to detect, investigate and prosecute fraud in the Aid
to Families with Dependent Children (AFDC) program and to
identify areas where greater involvement . by the Department of
Health and Human Services (HHS) would aid the States in combating
AFDC fraud.
BACKGROUN

The AFDC program was established under title IV of the Social
Securi ty Act (Part A, section                        401).
                                     The purpose was to encourage
    the care of dependent children in their own homes or in the
homes of relatives by enabling each state to furnish financial
assistance and rehabilitation and other services.. . to needy
dependent children and the parents or relatives with whom they
are living to keep, maintain and                         strengten
                                            family life and to
help such parents or relatives to attain or retain capability for
the maximum self-support and personal independence consistent
with the maintenance of continuing parental care and
protection. .
The AFDC is the fifth largest HHS program, ranking in Federal
funding behind Social                         Secuity,
                                 Medicare, Medicaid and
Supplemental Security Income. The combined Federal and State
budget was $14. 4 billion in program monies for Fiscal Year 1984
(Fiscal Year 1985 Federal cost was $7. 9 billion) which was
distributed to an average of 3. 7 million families consisting of
about 11 million individual recipients.

The AFDC is a cooperative program among the Federal, State and
local governents with Federal regulations providing a degree of
uniformity in the areas of organization and eligibility (45 CFR
235).  These regulati ns require that each State establish and
maintain procedures for the detection, investigation and
prosecution of fraud but allow the States considerable latitude
in the methods they may use. The HHS, Family Support
Administration (FSA), Office of Family Assistance (OFA) is
responsible for national administration of the AFDC program.
Also within HHS, the Office of Inspector General (OIG) exercises
oversight responsibility for the integrity of the program.

The circutances                           that constitute fraud can vary widely from
State to State. Furthermore, the States interpret fraud
differently depending on the context in which the term is being
used.  For example, if the States are looking at fraud with an
eye toward prosecution, fraud is apt to be any violation of a
civil or criminal statute involving the intentional
misrepresentation of facts for the purpose of obtaining
unauthorized benefits or avoiding a reduction or termination of
existing benefits. On the other hand, if the State is viewing
fraud trom the preventive standpoint, the interpretation of fraud

is likely to be broadened to include cases that involve
unintentional misrepresentation of the facts. As a result , the
findings of our study reflect the duality of these
interpretations.  However, for the sake of clarity, we have used
the broader interpretation of fraud that includes both the
intentional and unintentional misrepresentations of facts for   all
the study findings and recommendations except those that relate
only to prosecutions and/ or sanctions.
HEOOOLOY
The data collection and analysis for this program inspection

included on-site personal discussions and the review of Federal

and state statutes, regulations and policies. Discussions were

held with 460 officials 	 in 22 states (listed in Appendix A) and

62 county offices. Respondents were in six categories:

         106	 state level AFDC staff and managers
         146	 state and local fraud investigators and
              managers
         160	 local welfare agency caseworkers and
              supervisors

              prosecutors

              judges

              elected county supervisor


         460	 Total Respondents
                                                                  FINDINGS

Given the continuing pressure to reduce unnecessary                                                        Governent
spending, it                    is                           a way
                                          crucial that the AFDC program be managed
                                                         in

that minimizes unintended expenditures while sending a clear
message that program fraud will not be tolerated. This
inspection found a clear commitment in every part of the AFDC

structure, be it local, State or Federal, to serve those who are

eligible. It                         also found unanimity that fraud                               is   an intolerable
practice that demeans the entire                    Fraud    particularly            system.
                                                                                      ance.
                                                          is

damaging to those           in need of assis        Respondents expressed
time and again that the limited resources that are available to

assist those families truly           in need simply cannot be squandered

on the gree

This inspection revealed that States are expending considerable
 effort and resources on the deterrence and detection of fraud.
 In the past, this effort has been focused on the traditional law
 enforcement approach of reacting to the occurrence of fraud.
This approach emphasizes the detection, investigation, and
prosecution of accomplished fraud as a deterrent to continuing
violations. It uses prosecution and conviction rates together
with related administrative or court-ordered restitution as its
measures of success. This traditional approach must be
maintain d to preserve the integrity of the           However,                                   system.
          now a redirection of some of these resources and efforts
findings are:

there  is

which produces dramatically better results. Our specific

EX OF AF FRUD
Estimates of the extent of fraud vary                                                   widely. In part, this is
due to the absence of consistent and reliable data. It   is also
partly due to differing definitions and interpretations regarding
what constitutes                            fraud. In
                            either case, this inspection
discovered many problems with reporting of fraud incidences.
         The exent          fraud      of AF
                                        be reliably determined
         because valid statistical informtion is not available.

                                                                         caot
         The form SSA 4110, Recipient Fraud in        Assistance
         Programs (Appendix B), was designed to gather information on
                                                                                               Pulic
         instances of AFDC fraud in each         However, the data
         collected by these semiannual reports are outdated and
                                                                                       State.
         unreliable (extracts of which are attached at Appendix C).
         The FSA staff has reported that budget constraints have
         delayed publication of 4110                 they report that           data. Furter,
                                                                                              meaningful. Even so ,    no
                                                                                                         staff.
         only a small portion of 4110 data                                               is

         anticipated change in 4110 was reported by FSA         The
         latest national compilation is for Fiscal Year 1984 and, by

         failing to require uniform reporting, permits identical type

         cases to be treated as fraud in one State and non-fraud in

another. Furter, some States did not even submit a report

and, even in those that did, many of the counties advised
that they had not contributed to the state submitted reports.
As a result of inconsistent, untimely and incomplete data,
these reports are of little use in estimating the extent of
fraud.
state officials report that they are perplexed by the

fraud reporting process and question the need for the

reports.
The states are not aware of the uses made of the fraud
data submitted to OFA, as little or no feedback has been
received. In fact,  they are convinced that little use
could be made of the data submitted. A comment from one
official typifies the state reaction:
              "They (OFA) won't tell us how to do them (the
              reports) and I can't ' see how they could
              possibly use them. We can't even use the
              information we gather for them.

Many States have developed more realistic fraud reporting

formats for their own use.

May state officials estimted   the magnitude . of fraud                      to
be much higher than has previously      reported.                 ben
The opinion of State fraud staff was sought to fill the void
caused by the lack of statistically reliable data on the
extent of                fraud.
                  state administrators, investigators and
eligibility workers estimated fraud from 3 to more than
50 percent of the AFDC population. The most common estimates
centered around 30 percent, with respondents who work closer
to the service delivery level generally estimating higher
than others.

state officials         reported        furer
                                      fraud perptrators'
        tht
detection techniques.
sophistication is keeping pace with automated fraud


To evade computerized wage matches and other screens 


such as those required by the Deficit Reduction Act of
1984 (DEFRA), perpetrators are increasing their use of
false identities (e. g., names, Social Security numers
and dates and/or places of          bogus residences and
commercial mail receiving services. Work " off the books"
                                                         birt),
for cash is increasing as         These types of fraud,  well.
involving the active concealment of income, assets or

multiple entitlement, are difficult to detect, even                     in

automated environment.
Althouqh the exact extent of fraud in the AFDC proqram remains

unknown, these state opinions suqqest that AFDC fraud is a

billion dollar problem.  Quantitative data on fraud prevention
efforts provided later in this report support these opinions

about the extent of AFDC fraud.
STATE PERCEPlON OF   AF FRUD
The attention and priority qi ven       to AFDC fraud varies widely from
state to state. Clearly, respondents are frustrated when efforts
to thwart perpetrators are ineffective. An increasinq numer of
states are re-examininq their AFDC fraud      efforts.
    May state agencies       are more   comfortl.e deal.ing with
    overayments than they are with supected fraud.
    Some agencies have policies prohibitinq the use of the word

    "fraud" by other than inve stiqative staff. One aqency
    directs staff to use the term         intentional client error.
    Respondents reported that such attitudes seem to be
    encouraqed by OFA in its focus on error rates and overpayment
    recoveries under DEFR.        Fuer,fraud investiqation is
    viewed as a labor intensive and cost inefficient process


    officer is revealinq:
    while overpayment recovery actions are far simpler and more

    cost effective. The attitude expresseq by one State budqet


        "If you try to emphasize it (AFDC ' fraud), you
        lose two ways. The   liberals criticize you for
        squandering scarce resources on pseudo-issues
      . and the conservatives point to convictions and
        tell you, I I told you so. I I just hold my nose
        and hope it qoes away.
    The el.igibil.ity worker is the cornerstone of the states'
    fraud detection effort but is often poorly prepared for
    this responsibil.i ty.
    The eliqibility workers I primary responsibility is to

    provide vital assistance to families in need, includinq
    AFDC, Medicaid and Food      Stamps. In addition to this
    demandinq task, they are expected to use their
    interviewinq skills to weed out fraud by applicants
    during the initial application process and to identify
    recipients who have enqaqed in fraudulent acts subsequent
    to entitlement. Even where circustances indicative of
    fraud are uncovered, for example, by a computerized
    records match, it is usually the eligibility worker who
    must evaluate the match results and decide whether a
    fraud referral is appropriate.
There are a numer of factors which limit the eligibility
workers' abllity to effectively deal with the high incidence

of fraud they believe exists in their caseload:

    Heavv Caseloads and Processina Time Reauirements

    In many states, the workers report that their caseloads
    are so heavy that it is difficult to adequately screen
    out questionable information. Addi tionally, states are
    under standards of promptness which require the workers
    to process claims as quickly as possible. This
    combination of heavy workloads and processing time
    standards limits the extent to which an eligibility
    applicants.
    worker can verify questionable information supplied by

    Given these conditions, workers often adopt a priority
    which satisfies their perception of management' s desire
    to " get the check out and ask questions later. As a
    result, potential fraud cases are unlikely to be referred
    because " time simply is not available to develop the
    suspected fraud to the point where a referral for
    criminal investigation can be clearly supported.
    Moreover, there was reluctance to refer cases for fraud
    investigation because such referrals usually resulted in
    additional work for the already pressed eligibility
    worker. In    addition, months often lapse between referral
    and completion of the investigation.
    Inadeauate Trainina

    Most eligibility workers reported that they received too
    little training, and that training received usually
    consisted of on-the-j ob experience. While many workers
    and investigators reported that this type of on-the-j
    training worked out well, nearly all respondents reported
    a need for quality, fo al training in detection and
    investigation techniques. In the states where the
    training was of high quality, the results were apparent
    both in terms of the individuals' confidence in their
    ability to perform the job and in the results attained.
    Furter, many   investigators, particularly those without a
    formal law enforcement background, reported a need for
    good quality procedural manuals to guide their
    investigations and ensure that all evidentiary standards
    are met.  Some states, notably Wisconsin, did have good
    investigati ve manuals which help to achieve and maintain
    a higher degree of professionalism in fraud detection and
    investigation.
    Proaam Inconsistencies
    Most respondents reported a need for closer coordination
    between the Federal agencies on AFDC, Food stamp and
    Medicaid programs. The differences in eligibility
    factors and reporting requirements, as well as the
    markedly different avenues available for addressing
    fraud, increase the level of difficulty for the
    administering agency and especially for the welfare
    worker who must deliver services under these programs.
    The states are aware of the HHS and Department of

    Agricul ture intent to simplify program administration

    (Notice of Intent to Develop Requlations published in the

    Federal Reaister on February 19, 1985) but report that

    little progress seems to have been made.

Frud detection   and deterrence are not priority issues
for may State-elected officials and   AFDC progam
maager .
Eligibili ty workers in many states perceived a low statewide
commi tment to fraud detection though they see a high
motivation toward error reduction caused by the imposition of
fiscal sanctions for failure to meet the error rate targets
originally set in the Michel Amendment. Their perception of
management' s emphasis on producing a technically accurate and
timely product often- works against the aggressive detection
of fraud. To meet the timeliness standards, the workers
sometimes suppress "intuitions" that the information supplied
by the applicant, though seemingly sufficient to establish
eligibility, may not be complete or   factual. Within this.
context, the worker is expected to conduct investigative work
of a varied nature on each   case. This inspection found
little evidence of such work.
Many respondents indicated that the perceived lack of
commi tment to fraud detection and deterrence in the AFDC
program results directly from a similar lack of
commi tment by the Federal Government. They further
indicated that the HHS focus on error rates and sanctions
may be acting as a barrier to fraud detection because
aggressive fraud detection could result in the
identification of even more  errors.  They responded that
the best way for antifraud efforts to improve at the
state and county levels would be for the Federal
Governent to give antifraud efforts high priority and
visibility at the national level.
Though there is no specific and visible organizational

responsibility within OFA for AFDC fraud matters, OFA has

not been completely silent on this   subject. Through its
varied components, OFA collects data from the states on
fraud cases, has approved some demonstration proj ects
aimed at improved fraud prevention and prosecution,
played a key role in the development of regulations for
implementation of the antifraud DEFRA requirements; and,
in 1985, issued a Fraud Control Digest which was a
compilation of self-described fraud control measures
undertaken by a numer of states.
May eligibility workers view the fraud investigation     and
prosecution process as being ineffective.
The eligibility worker often sees the fraud investigation
effort as a waste of  time.     Even when prosecution occurs,
the most common result is an order to make restitution.
Seldom is puni ti ve actiontaken. In     fact, while
resti tution is  being made, ei  ther directly to the agency
or through the cours, the offender often remains on the
AFDC grant. An exreme example was related by a county
AFDC supervisor about a recipient who was found
ineligible because of concealed income:
    "Following a guilty verdict and an order to make

    monthly restitution, the recipient reapplied for

    AFDC payments claiming that a combination of one

    lost source of income and the added expense of

    the cour-ordered restitution  made her eligible
    for payments. At the appeals level, the claim
    was allowed and payment in the exact amount of

    the court-ordered restitution was authorized. 


Eligibility workers report that the lenient response to
AF   fraud is well known in the comunities.
Some recipients, even those with multiple offenses, have
reportedly adopted very casual atti tudes toward fraud and
the states' antifraud efforts. This leaves workers with
a bad taste for fraud deterrence and the miscreant
recipient for whom they must often continue to provide
service. One eligibility worker pointed out with
disdain:
    II
       After all my work proving that she was
    a fraud, she only got a slap on the

    wrist and an order to repay the money.
    Two days later she was in here reapplying

    for payments, bragging that we couldn't do

    anyting to her because the State wouldn't
    put a mother with children in   j ail. I know
    she'll do the same thing again, but why

    should I waste my time sending it to the

    investigator.  She'll just be back in here

    laughing in my face again.


The presence of an active, visible and effective fraud
inestigation              critical to the integrity of
the AF progam.
               function   is




Nearly all respondents agreed that an aggressive
investigative function, together with its threat of criminal
prosecution, must be present if the States are to succeed in
combating fraud. The organizational responsibiiity for this
acti vi ty varied widely among the States, ranging from the
establishment of investigation staff in State Offices of
Inspectors General to the      assignent of
                                          investigative
responsibility to the eligibility workers.
Though there is inadequate data to measure the relative

effectiveness of the different organizational placements

of the investigative responsibility, two elements were

consistently present in successful fraud investigation

operations:
    Management invol vement--The commitment of the

    Governor, key legislative committees, and top


    prevention.
    program managers produced environments that led

    to more aggressive fraud detection and


    Proximity/responsiveness of fraud units to

    eligibility worker--Those units that were

    accessible to the eligibility worker and that

    emphasized timely responses to fraud referrals

    were viewed by program staff as the more

    effective investigation units.


The absence of an administrative     recoure to AFfraud
prosecution is viewed by some as an indication of the
lack of Federal commtment to AFDC fraud deterence.
Respondents reported that the administrative hearing
process in the Food Stamp program provides a meaningful
al ternati ve to criminal prosecution by eliminating
dependency on an overloaded court system to deal with
fraud.   In the Food Stamp program, the law allows the
State or county to disqualify a recipient for 6 months if
found guilty of fraud by an administrative hearing
officer. A second guilty finding through this
administrative process results in disqualification for
12 months. A third such finding can lead to permanent

fraud.
disqualification. Those involved in investigation of Food
Stamp fraud believe that the administrative sanctions deter
   There is no similar administrative action the states can take
   against adult offenders to more directly deal with AFDC
    fraud. state respondents believe that such an authority
   could be equally effective in the AFDC program, particularly
   to deter repeat offenders.

   One state official expressed frustration over the seeming

   indifference to AFDC fraud with the following comment:

        "USDA (Food Stamps) is way ahead of you guys in
        addressing fraud. Sometimes we ask ourselves if
        anyone in HHS really cares.

   The recovery of fraud-related overpayments from

    recover forgrts
   continuinq        are restricted in the same way as

                non-fraud overyments.
   The same standards set by the Social Secuity Act for the
   recovery of overayments, in general, are applied equally
   to those resulting from fraud. . This restriction on the
   amount that can be         witheld
                               from continuing grants means
   that the recovery of fraudulently obtained funds is, at
   best, a protracted process which often results in only a
   partial recovery. In  effect, the fraud becomes an
   interest-free loan with a particularly favorable
    repayment schedule.
JUICIA RESPONSE TO AF FRUD
      "We' re. not talking about Dillinger here, but some of the
        judges treat (AFDC) fraud like a parking violation.
        This quote from a frustrated fraud investigator typified
        one end of the        spectru.
                                  On the other side, this
        inspection found some program agencies , prosecutors and
        judges working well together to address AFDC fraud.
    Fraud in the AFDC
    action.
                         prog seldom results in punitive
    Over two-thirds of the AFDC cases referred for prosecutiqn

    are declined or settled in the pretrial stage, with the

    emphasis on recoupment. The remainder of the cases usually

    resul t in suspended sentences and an order requiring

    restitution, but without any penalty, interest or fine being

    assessed.   Often the perpetrator continues to recei ve AFDC
    payments.   Rarely   is    there a j ail   sentence or other puni ti ve
    action.
    Such lenient handling of . AFDC fraud is an efficient means of
    moving cases through the court       system.
                                              However, any
    deterrent effect that could come from the investigation and

prosecution process is diluted. The reluctance of judges to
recommend j ail sentences is well known and could serve as an
inducement to some to risk cheating.   While the volume of
AFDC fraud alone makes it impractical and undesirable to
prosecute all cases, many respondents , as indicated by the
above quote, felt that the present practices are not tough
enough on those committing fraud.
Many prosecutors and judges view welfare fraud as a minor

offene that clutters an already overburened cour
docet.
Respondents complained that even blatant fraud cases were
often dealt with in a cursory fashion by the courts.
Investigators have been told by judges not to bring "that
kind of case (AFDC fraud) to me again.   Most courts,
particularly those in urban areas, are crowded with cases
of rape, assault, robbery, murder, etc., which are
realistically viewed by most people as more serious
crimes than welfare fraud. Accordingly, AFDC fraud
receives little priority in the court system. As one
judge said:
    "I have people stabbing each other with ice

    picks, and I resent hearing cases of poor

    mothers who tried to beat the system.

Another judge in a large city   said:
    "I got tired of state investigators bringing

    poor mothers into my court. I  don't hear
    those kind of cases any more.



admistrtive
                      AFprog
Same judges said that the
doing more to prevent
                                  officials should be
                           fraud and should develop
                           crimal
               alternatives to          prosecution.
Many judges see AFDC fraud as a basic program problem

that should be addressed by program managers through more

vigorous screening of AFDC applications to weed out those

families who are cheating. Also     judges are at a loss as
to how to handle a case of fraud involving the mother of
several minor children. They are concerned that

insufficient management attention is being focused on
fraud prevention and, as a result, the courts are taking
 a bum rap" for not dealing with the fallout of this poor
management practice. One judge relayed the complaint of
his parole officer who felt that the local welfare agency
is " ... using his office as a collection agency for AFDC
and Food Stamp overpayments.     Although the judges
collectively acknowledged their responsibility to hear
serious cases of welfare fraud, many suggest that program
         managers look to themselves for a more reasonable and

         effective solution than criminal prosecution for the

         typical AFDC fraud case.

         An offense treated as a prosecutable crime in one part of a

         state may not be handled as such in another.
         This was seen    every geographic area of the
                                            in                                                           study.
         Massachusetts, cases identical in type and amount are

         prosecuted in Springfield, ana handled simply as overpayments

         for administrative recoupment                                          in       Boston. In rural Tennessee,
         a $300 case resulted                                in   incarceration: while              in    Nashville ,    an
         identi al type case was not even submitted for a prosecutive
         decision. In rural Michigan, one convicted AFDC offender
         complained to an investigator:
             "This                                 Detroit.
                                   (offense) isn't even a crime                               in



         The maj or reason for this inconsistent punishment is the
         overcrowding of court dockets, particularly in urban areas,
         to the point that the system is not responsive to AFDC fraud.
         The local political environment and changing public pressures
         often impact on prosecutive priori ties. In addition, AFDC
         fraud is viewed as a victimless crime by many prosecutors and
         judges while others treat it more seriously.
         Clearly , criminal prosecution alone is not an effective
         deterrent to AFDC                              fraud.
                                    The courts simply cannot handle the
         addi tional cases and are ill-prepared to deal with the
         typical welfare cheater. The resultant appearance of
         leniency toward AFDC fraud may, in fact, be serving as an
         inducement to some to cheat.
STATE EFFORTS TO COMBAT                                    AF FRUD
Those States and counties that had developed aggressive anti­

fraud efforts demonstrated strong management commitments toward

the reduction of fraud and other payment errors. As an example,

the two southern California counties that implemented aggressive

fraud prevention strategies did so as a result of a sincere

management focus on the reduction of all errors, including those

originating from                           fraud.
                         Not only did this focus result in
significant reductions in the level of fraud but also                                                       in   the
maintenance of a high quality program with consistently low error

rates.
Some of the techniques used by the States to eliminate fraud                                                           are:
          Frud Early                      Detection And Prevention (FRD)
         The most impressive antifraud effort identified during this
         inspection is the FRD program developed by Orange County,
California. The                    predicated on a partnership

                              FRD program          is

between the eligibility worker and investigator in order to
identify and prevent fraud during the application process.
This program has saved considerable amounts of AFDC funds in
avoided grant payments (which, if paid, may never have been
recouped). An HHS-sponsored review of the Orange County
program, made public in October 1985, indicated that FRD
returns between $16. 60 and $33. 81 in savings to the Federal,
state, and county governents for every $1. 00 Epent on
operating costs. At present, there are 23 California
counties receiving state tunds to operate FRD programs'     The
California legislature has a pending bill mandating the FRD
program. statewide and has estimated the annual state savings
from such legislation at $60. 4 million.

In the FRD program, investigative    staff are assigned to work
 ith the eligibility                   staff , in each district
                                              office and
conduct prompt (usually within   8 calendar days in Orange
County) in-depth investigations into suspicious allegations
made by applicants for ' AFDC payments. Brief reports
sumarizing the eligibility worker' s suspicions are made to
the investigator if the applicant appears to be eligible but
the worker suspects that one or more of the statements
establishing this eligibility are              the         false. If
investigation reveals that the applicant has misrepresented

the facts, this information is relayed to the eligibility

worker who denies tho e applications that had not already

been withdrawn by the applicant as a result of the

investigation. The principal focus of the FRD program is 

prevent undeserved AFDC payments: criminal prosecution is

secondary .
The FRD program, because it emphasizes prevention, puts a
very broad interpretation on what is included in         This              fraud.
broader definition includes unintentional misrepresentations
of facts by clients. For the purposes of FRD, it is enough
to know that something in the application for benefits raised
a red flag and caused the eligibility worker to make a
referral. If ' the subsequent investigation finds
misrepresentation, the case                   is        normally rej ected as
ineligible. In a small minority of cases prosecution may be
sought.  Many respondents, including several FSA staff, are
bothered by such a broad interpretation of fraud and would
prefer that the process be renamed. Many states prefer to
call the system fraud prevention and to treat it in that
fashion.  Regardless of the name, the system is a popular and
effective method of screening out ineligibles at intake.
The Orange County program, on which the FRD program was
patterned, was first piloted in early 1980. It involved
moving existing investigative staff from their traditional

post-enti tlement placement to the front-end of the
enti tlement procedure. Because the process proved so
successful, additional staffing was provided to handle the
increasing numer of preeligibility investigations.
similarly effective process was implemented about the same
time in neighboring San Diego County. The basic difference
between these operations is that Orange County' s program is
under the direct supervision of the County District Attorney
while San Diego s is managed by the Department of Social
Services and uses eligibility workers instead of fraud
investigators. A California Auditor General Report, released
in  Decemer 1986, noted several advantages of using fraud
investigators.  primary among these is the ability of fraud
investigators to use many more investigative techniques
wi thout the applicants'  consent.Also, the fraud
investigators are empowered to review many more sources of
information than is the investigative caseworker. This
report looked at three counties which had a total of 8, 642
referrals. In  this sample; 1, 585 applications were denied
and 824 were withdrawn.
Of the 106, 075 initial AFDC applications handled by 21
California counties (excluding San Diego) in calendar year
1985, 19, 062 (17. 97 percent) were referred for pre-
eligibility investigations and 5, 652 (5. 33 percent of total
applications) resulted in the denial or withdrawal of the
claim.  This process allows eligibility workers to transfer
that portion of their work load which they are least prepared
to handle to a staff that are trained to deal with suspicious
cases.  Approximately 76 percent of , the cases handled in the
FRD program during calendar year 1985 involved issues such
as residence, deprivation, and household composition that
could not be identified or resolved through an automated
screen or records match. The remaining 24 percent involved
income or assets, some of which would presumably be detected
by the Income and Earnings Verification System (IEVS)
mandated by DEFR. Based on the earlier reported findings
that active concealment of income and assets is growing, it
is estimated that half of this 24 percent involve employment

 off the books" and other disguised income that would not be
detected by IEVS or other automated screens.
One eligibility worker in Orange County pointed out   that,
prior to the inception of the FRD program,
    "These frauds were often ignored because we

    didn't have the time or the clout to prove

    the cl ient was lying.
The intuition of the eligibility worker for suspicious

applications and the expertise of the investigator in

establishing the facts are the tools needed and used most

effectively in this partnership to weed out fraud before a
loss of funds occurs. This intui ti ve approach complements,
and may even enhance, the less discriminating elements of
automated eligibility verifications whiqh are required under
DEFR. This program contains provisions to protect the
rights of applicants for public assistance. Each individual
whose application is denied or withdrawn as a result of the
FRD program is provided a complaint form and advised of
his/her right to file the complaint either in person or by
mail.            In 1984, the 20 counties operating the FRD program
completed more than 19, 000 investigations, which resulted in
the withdrawal or denial of 7, 457 applications. Of these,
only 11, complaints were filed and 7 of these were unrelated
to the FRD program. Moreover, only nine individuals who had
been denied payments as a result of the FRD program in 1985
had applied for hearings. Of the nine hearings, three are
still pending and five of             e six that have been concluded

were decided in favor of the county.
The state of Arizona and some counties in Colorado, Georgia

Kansas, New Jersey, and Wisconsin have implemented or are

planning implementation of similar fraud detection and

prevention. efforts patterned more or less after the Orange

County experience.
Verification of Eligibility Factors

Computer matching has reportedly ushered in a new era in AFDC
fraud detection. It has uncovered a large numer of cases
that previously went undetected. A large percentage of AFDC
fraud results . from the failure of a recipient to report
income or assets. Matches with state wage records, bank
records, motor vehicle registrations, unemployment insurance,
and similar automated records are regarded by respondents as
the most effective method of detecting this type of fraud.
Respondents estimate that 75 to 95 percent of fraud

pertaining to unreported income or assets occurs shortly

after eligibility. This technology enables the rapid

comparison of relevant data from different sources and has

proven highly effective in reducing losses due to overpayment

caused by fraud.
Unlike most other states visited, California, Colorado,
Illinois, and North Carolina place considerable emphasis on
computer matching to verify initial and continuing
eligibility.  California has had significant success with its
Assets Clearance Match which identifies unreported or under
reported interest-bearing bank accounts. The state proj ects
savings of $13 million in Fiscal Year 1987 from this program
alone.
One Nort  Carolina county, without the automation
capabilities of larger counties , places an increased emphasis

on more proficient preeligibility interviewing to reduce

fraud. As a result, the county has been effective in

excluding as many as one-third of applicants as   eligible.
These eligibility verifications, both automated and non-

automated, parallel those required by DEFR. The
demonst ated effectiveness of these antifraud techniques
lends support to the mandated national implementation of

eligibility verifications of DEFR.

Incentives for Fraud Detection, Prosecution and Related

overayment Recoveries
 In state-supervised, county-administered programs where the
 counties' share of operating costs is higher than their share
 of grant costs, aggressive "detection, investigation, and, to
 some extent, prevention of fraud may not be attractive to the
 counties from a cost-benefit standpoint. The savings and
 recoveries from these efforts that can be claimed by a county
 are based on the percentage of the county' s grant cost and,
 thus, are small in proportion to both the total savings and
 antifraud acti vi ty operating costs. For example,
 California' s experience with the FRD program revealed
 average benefit-t -cost ratio of 2. 1 to 1 for the counties,
 whereas th ratios for the state and Federal governents were
  10. 1 and 17. 8 to 1, respectively. To remedy this fiscal
. disincentive, California is proposing to relieve the counties
  of operating costs of FRD.     CUrrently, the nonfederal share
  (50 percent) of the operating costs of this program is
 divided equally between the state and counties. In a like
 manner, Colorado recently enacted legislation to provide a
  fiscal incentive for combating fraud by permitting the
  counties to retain 50 percent of the state' s share of AFDC
  recoveries resulting from fraud related overpayments.
 Two states have developed innovative approaches to collect
 fraud-related overpayments. In Massachusetts, the AFDC
 agency can formally establish itself as a priority lienholder
 in order to attach current or future assets of perpetrators.
 In this manner, ' sources not reachable by traditional offset
 and refund procedures can be attached to satisfy those
 ov.erpayments that have proven difficult to collect.
 Michigan, recovery methods include the interception of state
 tax refunds.
                                           CONCLUSION


                    "Prosecution  is a stopgap measure to be used

                      until something can be done to prevent fraud.

This quote from an assistant district attorney expresses a

sentiment shared by many of the 460 officials interviewed for

this study. The AFDC fraud  is a billion dollar problem that will

not go away if left unaddressed. Eliminating fraud from the AFDC
program will require the commitment of management resources at
all levels of                      governent.
                           As this study demonstrates, much has
already bee done by the HHS, the States, and the counties to
combat fraud, but the problem persists.
The traditional response to fraud, detection followed by

prosecution and recovery of the fraudulently obtained payments, 

has proven to be ineffective in dealing with all but the most

flagrant violators. Welfare workers are frustrated because they

see little action being taken against offenders. As a result,

they have a low commitment to the detection and referral of fraud

for investigation. Violators who are investigated and prosecuted
receive little more than a " slap on the wrist" because the
criminal justice system cannot adequately deal with welfare
mothers.  The recovery of fraud-related overpayments, whether
ordered by the courts or pursued aclinistrati          typically a
                                                             vely,   is

protracted process that often fails to recoup the lost funds.
This ineffective response to AFDC fraud must be reversed in order

to raise public confidence in this program and to ensure that

funds will be available to provide assistance to those families

who are truly in need. To eliminate the perceived high level of

fraud from the AFDC program, an aggressive and balanced strategy

consisting of the following elements               is   needed:
       . management commitment to the reduction of fraud and other
         payment errors:
          front-end fraud detection that couples interviewer

         experience and intui tion wi th investigative skills to
          identify and prevent frau


         automated eligibility verifications such as those

         required under DEFR to systematically detect unreported

         income and resources: and

   a traditional investigation and prosecution function to deal

   with perpetrators that elude the fraud prevention efforts or

   commit the fraud subsequent to eligibility determination.


The concept of redirecting part of the investigative function to
the front of the process is the key to this strategy that will
save as much as $818. 5 million in avoided costs (see Appendix D
for additional details regarding these estimated  savings).  This
step will be an effective complement to the automated front-end
eligibility verification required by DEFR. Coupling these
aggressive fraud prevention efforts with a more discriminating
emphasis on prosecution, a bolstered overpayment recovery effort,
and the au ori ty to assess administrative penal ties, where
appropriate, will demonstrate that fraud will no longer be
tolerated in the AFDC program.
This requires that HHS take the lead in combating AFDC fraud    by:
    working with the states to develop, test, and transfer

    effective fraud prevention, detection, and investigative

    skills:
    making better use of the fraud reporting process to focus

    public, congressional, prosecutorial and judicial attention

    on the severity of AFDC fraud: and

    tormulating and espousing a clear antifraud policy including,
    where appropriate, the development of legislative proposals
    that provide states with the means to more effectively deal
    witn fraud.
The FSA comments on. the draft report are included at Appendix
Two points raised in FSA comments need  furter clarification:
    The FSA'indicated that they are unable to accept the report I s
    estimte of a billion dollars a yea in fraud and the
    complementa finding that savings of $800 million a year
    could be achieved because quality control exerience does not
    show error rates at such levels.
    We recognize that existing quality control data does not
    support the extent of fraud identified in this  report.  While
    the quality control process does uncover some fraud, that
    process misses the heart of the fraud detections by FRD.
    These cases are characterized by unsubstantiated deprivation,
    household composition, and residence. They are detected by
    investigative field work, unannounced home visits, and
    collateral contacts with neighbors, local businesses,  etc.,
    all of which are techniques more readily practiced by
    criminal investigators. The quality control activity is an
    essential component of the AFDC program but is principally a

    paper review process. Accordingly, it cannot be depended

upon to measure the extent of fraud since a significant

portion of fraud can be detected only through the

investigative techniques listed abov

The FSA   furer
progam (See
                 indicated that mandating a FRD-like
              Recommendations, page 20) could result in
the elimation or
verification prog.
                    dilution of proven preeligibili


We believe that mandating a front-end, fraud prevention
effort like FRD can only enhance other preeligibili
activity ongoing in a  State. The selective identification of
a small' numer of suspicious cases for investigation is the
foundation of  FRD.  This permits the identification of
misinformation that could not be detected by computerized
front-end matching programs. Therefore, it complements
rather than dilutes such  efforts. Such a mandate could
easily be written to assure that a FRD-like program would
supplement any existing successful programs.
                      RECOMMENDATIONS


To address the billion dollar AFDC fraud problem identified in
this inspection, the following actions are recommended for the
Administrator, Family Services Administration:
    Revise regulations (45 CFR 235) to require that states
    implement a preeligibility fraud detection and prevention
    program similar to the FRD program used in California and
    other a eas of the country as a condition of state plan
    approval.
    Consolidate and increase the visibility of OFA I S scattered
    antifraud efforts in a specific component with the
    responsibility to work closely with States, both directly an
    through the united Council on Welfare Fraud, to more sharply
    focus management attention on the prevention, detection, and
    deterrence of fraud through the development of:
        an improved fraud reporting mechanism that collects
        useful information on the incidence and nature of fraud
        prevention, detection, prosecution and overpayment
        recovery acti vi ties, and provides timely, meaningful
        feedback to the States on statistical data as well as
        narrative descriptions of innovative antifraud
        techniques;
        a broad spectru of training and information packages to
        upgrade skills in combating fraud and to increase
        judicial and public awareness of the significance of AFDC
        fraud and the positive steps being taken to combat it;
        and
        a centralized information center aimed at improving state
        access to and use of appropriate Federal, state, and
        private records to facilitate the timely verification of
        eligibility factors in order to prevent fraud.
APPENICES

  APPEIX II A II




22 STATE VISITE

AF FRUD   PR    INSPECTION
    22 STATE VISITD


         ARZONA
        CAFORN

         COLORA
        CONNCTCU
         FLRIDA
          GEORGIA
         It.OIS
           IOWA
         MAYL

       MASACHSET
         MICHGA
        MISSISSIPPI
         NE YORK
      NORT CAOLI
           OHIO

          OREGON

       PESYLVA

         TESEE

        WASHIGTON

        WISCONSIN

         WYOMIG

        APPENIX   "B"




INSTRUCTONS FOR FORM SSA-4110

r- '




                         Department of Health and Human Services

                            Social Security Administration

                                  Office of Policy

                           Office of Research and Statistics

                         Division of Family Assistance Studies


                                       INSTRUCTIONS
                                            FOR
                                                                    PROGRA
            SSA-4ll0, RECIPIENt FRAUD IN PUBLIC ASSISTANCE 



        Content:  Form SSA-4ll0 provides information on administrative and
        legal actions taken during a six-month period on cases involving
        questio of recipient fraud, and recent developments and problems
        in the prevention and detection of recipient fraud. 

        Requirements:	                                             A report
                       A report on Form SSA-4ll0 is required semiannually

        of all States (i.e., October-March and April-September).
                                               the month following the end

        is due not later than the last day of

                                     report.
        of the period covered by the 



        Submittal procedure:
 Send the report
                                                      to:
                             (1)	   Division of Family Assistance Studies
                                    Office of Research and Statistics, SSA
                                    Room 2227, Mary E. Switzer Building
                                    330 C Street, S.
                                    Washington, D. C. 20201

                             (2) . Assistance Regional      Commissioner, OFA




                                           B-1

'.                     . .




          Instructions for Part I

                                              (SSA-4110): Administrative and Le al
                             Action on Cases Invol vinq a Question of Fraud

 General Definitions

                               reported 1n this section relate to

 The statistical items to be          the fiscal year regardless of

 cases that were in process during                     Consider a case

                                                           of fraud. 


   hen the case initially became suspect                         a enc

 as .in rocess . as soon as a of determination has been made b uestion
                                    the evidence to su
                                                                 
         ort a
   ersonnel on the sufficienc                in process . as soon as

 ef fraud. Consider a case as no longer 8
   evidence to support a

 there is a d terminaticn of isinsufficient
                                  a determination of sufficient

 question of fraud or there                     the fullest extent that

 evidence and the fraud bas been pursued to 

 will be attempted. If a case initially     reported as having

                                    ew evidence and is subsequently

     insufficient evidence acquires 

                                evidence, the case is counted

  viewed as having sufficient      case and once as a sufficient case

     twice--nce as an insufficient                   the decision took

  each time 1n the appropriate period(s) in which
  evidence, report
     place.For a case viewed as having sufficient
  each action or decision (or lack thereof) that occurred by the end
     of  e period. If action is taken by both agency personnelFor .nd
                                                                         actions.
   legal personnel in the same period, report   both

                                           agency empowered to

   example, if a case was referred to an      same period, report the

   prosecute and ended 1n conviction in the

      case in both 1. 1 and 2.
      AFDC, Hed cal Assistance, and Food Stamp Columns

                                                           reported on this fOrM.

      Only cases involving AFDC fraud are to be 

      If the AFDC fraud is 1n conjunction with Medicaid              or Food Sta

                                                              1f all three programs

      fraud, place it in the appropriate box        and
                                          the right most column. 

                                                                               his

      are involved record these cases in                 of the agency that raised

      classification should be used regardless

       the questio of fraud or that took                 action on the case.
              ecific Instructions

                   Action by Agency Personnel

                                                                                    raud.
          Line lA. 
Evidenee not sufficient to succort a question of f

          Enter the total number of cases for was
                                               which a decision to
                                                  insufficient   was ma

                                                                   support a

          Agency persor.nel that the evidence

          question of fraud.
          Line 18 (1). 

                        Evidence sufficient, case referred to agency

                                         Enter the total number of cases for

          empowered to prosecure cases.         period to refer the ease to

          which a decision was made during the 

          the agency empowered to prosecute referral
                                             cases regardless
                                                     had been of whether by

                                                              completed   all

          procedures necessary to make the
          the end of the period.



                                                   B-2
.'   ..




                     Evidence sufficient, case not referred     to agency

      Line 19 (2). 

                     rQs cure  cas    reas      Enter . the number of case
      empowered                to


        n each o    e subcategories for which a declsion was made during
                                          to the agency empowered to
                                                                       case
      prosecure           Selectcass.
         e period not to refer the case
                                 the most  compelling   reason why the   those
      was not referred. Establish additional reason       categories if

                                                                  cases.
                                                   Use a separate sheet
      listed do not apply to all of added.
                                      the
    Co not. include mere than five
      more than three reasons were
      percent of the Cdses in a cat.ego
                                            called . other . if such a
       category is est.ablished.

      Line 18 (3).  Evidence sufficient, pendinq decision ected
                           rosecute  cases.  Cases of sus
                                                            to refer  to for
                                                                  fraud
      aaenc                     owered to

                                                         the sufficien
      which a decision has not et been made re ardin
       or unsufficienc of the eVldence should not be re orted on this

                                     made. Enter the total number 0

       orm untl such a deC1S10n 1S
      cases on hand at the end of 

                                   the. pericd for which no decision had
      been made with respect to whether to refer the case to the agency

      empowered to prosecute.


          II.          Action by agency empowered to prosecute cases
                    Prosecution declined, reason. Ent.er the
                                                              number of cases
          Lin          2A.
                                                ch a decision was made during

          in each of the sUb-categories for wh
 the most compelling reason
                                        Select
          the period not to prosecute.       Est.ablish additional reason Use
          why the case was not. prosecuted.
                                         not. apply to all of the cases.
          categories if those list.ed do                                                       not

          a separate sheet if more than
 t.hree reasons
                                                                              were added. Do
          include    re than fi ve percent of the cases in a category called
            ther . if such a category is established.
                                                 Enter the total number
                                    Pre-prosecution diversions.
          Line 2B.
                                                    prior to deciding

          cases for which a settlement was arranged
                                                              prosecution.
                                                       Include all cases

          whether to decline or initiate 
 of the period regardless of

          that have this status at the end                     initiated.

          whether the settlement has been 

                                                     Enter the number of
          Line 2C. 

                                    Prosecution
                                initiated, outco
                                                                                                      the
          cases for which prosecutiOn was completed or terminatedSelect
          period by appropriate outcomet.he
                                         andstatus
                                              the number
                                                                    during

                                                                          the   pending.
                                                   of the cases at the end of
          outcome that best describes 

          the period. Specify other outcomes such as 8
                                                         failed to indict, . as
          necessary. Use a separate sheet if more than two outcomes    were
                                                                 cases in a
           added.  Co not include mere than five percent  of the
                                                       is established. Under
          category called . other if such a category       art and ac uitted
           convictions  include those cases convicted in
          in part. under dismissals, include only those cases that were  Under
          dismissed after an indictment of
 information was obtained.
           pre-trial, pre-decision diversions, include cases for which
                                                                   Under a

                                                                         case prosecute.
            settlement was arranged 

                                                      after   deciding to 



            oending, include cases for which prosecution was lnltiated bu

                                                of the period.

            outcome had been reached bV the end 


                                                          B-3
 ..: :'   .. . .                    ..           - ...   ",.



                                         8. .




"" s"

                                                                            Only cases
               Line 20.
                         Case pendin decision on action    to be taken. 

                                                    prosecute case when th

               referred to the agencY empowered to

               lnc uded on thlS
            lne.
               decision on the action toEnter
                                          be taken has not
                                              the total    been of
                                                        number   made ShOU

                                                                   cases
                                     in the aqency empowered to prosecute
                                                                         on-hand at
                                                                            cases

                 e end of t e per                                        taken.
               for which no decision had been made on the action to be


                                                                  Nature of the

                            Instructions for Part II (SSA-4ll0

                                    Statistical Data Reported in Part 1



              Describe in this portion of the report the accuracy and
              completeness o! the statistical data  reported in Part
                                                                           1.
                                                                         Whenever
                                                                           the
                        tatevide data are not. available, use this part of
               accurate S'
               report to explain the method of estimation and/or the entent
               the State lde coverage used to complete the itemsitem,
                                                                  in Part

                                                                      describe

                                                                                I.
               coverage and/or estimation procedures varied by 

               items separately. Include an explanation of why accurate State­

               wide data were not available.



                          1nstructions for Part III 
(SSA-4l10): Methods of Cealing
                                      wi th Questions of Recipient Fraud
                                                                                      the
                   Describe in this portion of the report recent developments in 

                   prevention and detection of recipient
                   that have been encountered.
                                                         ate.
                                                         fraud as whether
                                                Clearly identify   well AS the
                                                                            problems

                   information refle ts a situation in the State as a whole or only a
                   specific portion of the S





                                                               B-4

, ..'"         ".-                   ......................
                                         . . . . . ..................................
                                                            . . . . . .. ... .. ... ... ... .. ... ..................... .......................... .. ..' .
                                                                                                           ........ ... .......... ...... ,.....
                                                                      . . .. .. .. ......... ..... ................
                                                                           ..........                                                ........ ...............                                          --..-      ..

                                               RECIPIENT fRAUD IN PUBLIC ASS8STANCE PROGRAMS
                                                                                                                                                                                                       nAR
                                                                                                                                                                          o OCT.
                                                                                                                                                                                   MA.   o "'R. II".
                                                                                                                           fRAUD
                                                    'ART' -ADMINISTRATIVE AND LEGAL ACnON ON CASES INVOLVING A QUESTION 0'
                                                                                                                                                                         nr an           Nr   an
      l\,.
  I. ActiOf bt       Igtnc ptrton                                                                                                                               Af mLY                   10            ar ra ST
         A. IwlCf Nt ",lUclt"I M"'pp'                                        CI"dOf oU'lUd ..



            1.Id.nc ",,,Id... 8. aUHO'1 CI..alOf .r rraud:
                  e.l. ....".d 10            .g.ne ,"po...d to prOlect. Cllca
                  e.l. 1'01 ,".n.d 10                 .g.ney .rfpolld .0 prolKl. ellll:
                            Sm.1I amDunU Jnvolwd 

                            R.lmburs.m.nl ar..nQed 

                            SPi.1 h'idahr," lnvol;e

                            Olh., 'tllona (spICily.                             III

                                                                                12.

                  '.nding declalo.. 10 re'" 10 agency .mpolf.d 10 pto.ect. ClI.a ..

2. Action by 1\I'nc empow.,.d 10 pr011C1I cII.a
                                                                                   no. 10 prOiCCIl:
         A. ',OItClion dtdlne - D.elalOf ""d.
                   Small amoun.. Invollrrd . .
                   R.imbu...m.nl."anged...... . . . .
                  $pccill hardlhip involv.d . . .
                  Olher ".Iona "PtciIV.
                                         I..
                                                                                 Ibl

                                                                                 lei

                      pr..ectlOf _....lone. . . . . . . . . . . . .
               '.olttlon            1nlllet14 -lndctm"'tI                        or InrOl""tlon'I","Pt.d:
             I: - Conaionl
                   Conaionl......................................

                   Acquit.aI........................................

                   Dhm".."

                   ,,.-I..aI..-dlclalon div."ion. . . 

                   O,hll oulcornll h cj'           C.I

                                                                                  Ib)
                   c.' .!nd'
                                                                        tet be t.kln.         . . . . . . . . . . . . . . . . .
             e... pendl", dec.alon on .ction

                                ,D.",., ,.,.' .".,.."..
                                   ...,. 	....   .---                                  ...                                                  . . . . . . . . . .                                                      . . .
                                                                                                                                                                                                                    ",'



'RT II- NATURE 0, THI STATlSTlCA'- DATA RErORTED IN
                                                                               'ART'

                                Ac.ull                                                        ...I.Uy E"imal.d                                                      OCompl.,tly Ellimilte .
                                                                                      o 1-

                                            ' II.Im..N, ,h, b181. 'or th. '8,,,.ar	           .nd 11. ..lIon .e',," da.. .If. nol ...llbl..
:bow Of .n   '1IIdu.n. -'kh    111m.
                                                                                              .rIiIlly       lIlew   d. atd
                                                                                                                                                                       Non- ShllWldI.
  S..Iillaul 0... .rt:          SIlleWld.
                                                                                             r".lally Non, SIaiewide
                                                             .. potion or        th. s..I. ",..1. co"red ti              th d.I.. Ind    ,h. ....on d.. I Wt      NI ...lIabi. for Ih. 'nl of "'. SI.Id
;how en 8f   .",chmtnl wtkh II"" .rt non.S..,..ld'.
IRT 188 - ..ITHOOI Of DEALING WIITH QUEST.ONS O' RECIPIENT fRAUD

  DII :rlbt &ft1hprlnll d,,"       thi repotlng perlod In       '1gI,d 10. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

                                                                th .. .                 In Id lnU'y n. cae.. In wh            ch .t",.   m., be. q,,".lon ...,."d:

  10   ImprOWlMnll       m.thde ..          "..,,,. '.aud .nd




                                                   ,,"lIonl 0'   IIcipl.nl '""d .nd "'pI                 ....n 10 ,nol". thl   "obllme:
  b. probleme .ncilled In dlliin. whh



   c. D,velopln.     .f coop...,I.. relalionahlp. with law        .nforum.n, .lIcl,11 .nd CIO""':




                                                                                  n. chili" .f ..."d.




                                                                                                                                                                  .nd Inll,p....d.. 01   lIuWI1I.. mlI..I... pert
r. Add   an olh.. COtnll. Including            luWt..lon. or    ..coenatlonlon qutl'ione 0' IIcipl,nl ',aud. Alta copl.. ., IIPOIU
   '0 th. IUbi.el ..Ia o' 'Klpltnl frlUd tha' 

                                                     .cf '0 th In'orma,lon ".1.. of                "" "pOll.
            APPEIX "C"



   EXLE OF   SEH     AF FRUD
STATISTICS DEVPE FROM FORM SSA-41.1.0
                                                                         ------------------------------------------


                                       lUH UW AU   HCV           UHH             H UHLr
                                            OCTaiER U83 - HARCH 1914
                                                                          EVIDENCE SUFFICIENT TO SUPPORT A QUESTION
                                                                                                . OF r RAt.I

                                      . EVIDENCE NOT
                                      SUFFICIENT '10
                                      SUPPORT A QUESTION                          CASE            CASB NOT     REIERRM
         STATB             TOTAL      OF FRAUD                          TOTAL     REFERRm REFBRRED .           PENDING
         ALABAMA                653                                        653            141            312        200
         ALASKA
         ARXANSAS               124                         ' 51
        CALIFORNIA         269695                        , 15536       254151         2858            17211
        COLORAO                                                                                                 214030
                              815                           452                        132              211
        CONNECTICUt'          121                                         121          121
        DELAWARE
        DIBT. or COLUMIA
        FLORIDA              3186                         2865            321
        "AWA II

                                                                                                                   230
         ILLINOIS
         INDIANA               583                          180           403             116
        IOWA
                                                                                                        262
                             1010                                        1061                          1031
        KANSAS                 10t                                        101
        ItENTUCn
                                                                                                        585
                              294                                         234             155'
        LOUISIAN             1115                          742                                          296
        HAINE                 960                                         !HiO         160
        HICHIGAN
                                                                                                        800
                             3008                         1919           1089         1089
        HINNESOTA                                          621           1364
        HONTANA
                                                                                                        128
                               545                                        535                                      4t1
        NEBRASKA
        NEW HAHPSHIII          291                         211
        NEW JERSEY          23t15                         1642          22 213        2001
        NEW HEXICO
                                                                                                      5184       15088
        NORTH DUO'A
        OHIO                 2881                         2033            It.             633
        OKLAHOHA                                                                                                   215
        RHODE ISLAND           548                         390            158
        SOUTH CAROLINA                                                                                  126
        SOUTH DAKOTA           111                                        111
        TENNESSEB                                                                                                  111
                             1523                                        1523                          418        1011
        TEXAS                 461                          301            164
        UTAH
                                                                                                       130
                              510                          210            240             240
        VERMONT               111                                         125
        VIRGINIA             1826                                                                                  125
                                                           880                            486
        WASHINGTON           2192                          852           1)40
        WEST VIRGINIA
                                                                                125'
        WISCONSIN            1812                          262           1550            523
        WYOMING
                                                                                                       913        114
        VIRGIN ISLANDS

TOTAL                      322252                        29498         292154       10301           30510      25UU
REASON FOR NOT REFERRING CASI S TO AGENCY EMPOWERED TO PROSECUTE
       . ArDC CASES ONLY - - - OCTOBER 198)-MARCH 1984
                                                                                SPECIAL
                       CASE NOT    SMALL AMOUNTS          REIHBURSEMEH'f        HARDSHIP
STATB                  REFBRIU     INVOLVED               ARRANGED              INVOLVED   OTHER

ALABAMA                     312                                        312
ALASKA
ARKANSAS
CALIFORNIA                11271                                      15222                   2049
COLORAO                     291                                                               119
CONNECTICU'f                112               712
DELAWARB
DIST. or COLUMIA
FLORIDA
                                                                         :I .
HAWAII
 ILLI NOI8
 INDIANA                    262                 51                                            124
 IOWA                      IOU                215                      191
KANSAS                      585                                        515
KENTUCKY
 LOUISIANA                  296                                                               296
 MAINE                      800                136                                            6:U
 MICHIGAN
 MINNESOTA                  928                                        210                    629
 MONTANA
 NEBRASKA                                            0'
 NEW HAMPSHIRI
 NEW JERSEY                5184                113                    1058                   4008
 NEW MEXICO
 NORTH DUOTA

 OHIO

 OKLAHOMA

 RHODE ISLAND               126                                        101

 SOUTH CAROLI NA

 SOUTH DAKOTA

 TENNESSEE                  418                                                               418
 TEXAS                      111                                        105
 UTAH
 VERHON'
 VIRGINIA                   419                124                     111                    111
 WASHINGTON                1259                                                               820
 WEST VIRGINIA

 WISCONSIN                  111                                        131                    133
 WYOMING
 VIRGIN ISLANDS

                          31215               2019                   19598                   9511
                                              ::                    ---.                             --        ~~~         ::   ' -           - ;) ­





          ZCCZ
         CC­
                       0 OnNOenOOmO
                       0 no
                         M UI
                                                        nMN 00In
                                                      N mo                     ONOM MOmnO 0 0
                                                                                   In N            n-                           Men       00 0 0


           1:1 U Y.
        WQ-4:1Z
        In Z U

                                 II .
        CZY.Y.ZC
        ua.QC
                       0 O. oonOO                NOM 0 .N
                                                      M nll               mo 0 000 0 00 MM -Ilno 000 ONO .NO
                                                                                                     11- 0

              In Z
              4: Y.

              U a.
                       000 omo-o.o 000                              MO       O M   000 0 00 0 0 0 OOO.OOM-O -0                                     0
              II C


                       -00 moo 0000000 nOO 00 0 000                                         N 00      !IMO.N                O-N 0 moo
             - 1f

           -IlfZ
           -u-
           4: - C
           II 1& en

              CI II
              I Y.

           1010:)
           II I! ­
           ca a. Q
. C­                   0 O. ono 00000-0                         --0          N-OON moo NO 0 O-O.ON                                    n 0 
     o0

I 4:

I I

                       -00 -00 OOOOONO 0                            000-- oo-moo -00 00 0 0 0 0 MO 0 000
  1,;




                       NO.ONMOO.-OO.
                       81 . In - N N - 1:1:N-N en mon                                       N-M mMmom 0 .oo
                                                                                         . en            - M                      -0 NMO 0
                                                                                                                                  . tn 





                       - Nm
 '11


 C;.

                       In Nmn-m -onM om.
                            ON
                                      n  mNn n. 0 mom
                                      - nOO.M                                            -0 --M      Men 0 0
                                                                                                                ---n
                                                                                                                  NNO M ntn NNN 0
                                                                                                                      M.I:

           1::­
          wU
          II 10 II

          camw
                       N ­

                       an   00 ooooomo
                                         -MN NN
                                                   0-0 00-00                       -oo-OO 00 0000 000 00 ONOO
                                                                                                                       inN N




             C:)
             II ­
             a. CI





             ::1&
                       II OnN
                       II o-m-. -OnN om-. Mn                                       000
                                                                                            f.  om NM
                                                                                                                     -N. -f,
                                                                                                               ON.NO O mm-mo 0

             10­
             m -I




                                    J:                                                                          4:

             II 10

             .. CI





                       4:   mzc-I&-::UenU
                            4:a:Q a:C4: -4: X4:
                       4: X Z II a: u.:I 0 - - Z 4:
                       II In 4:- C Z     cza: 4: - - 4:
                                                        ;)Z z
                       J:4:enC4:U4: Q-CZ enu- CInZInCZI&W   4:C4:
                                                                         4: 4: %;)cc 4:CC Z­
                                                                      III&UX4:1nCZ4:1&
                                                                   ca.In-CZ         ..a:XI& coz
                                                                                      C
                                                            - 1& 4: 4: :t "" I: :t rw : :t In
                                                               4: :: In 1&
                                                               In
                       C 4: X .. .. Z .. en C :I .. Q :I Z Z -::z:t- U
                                                                     z
                                                                                                  zzz
                                                                                                         a:­
                                                                                                     -Ul-InUl
                                                                                           Y.1n C - - zzz
                                                                                         I:a:XQ J:-UQen

                                                                                                           C - ­
                                                                       Z Z a:II :I :I :I a: -C 4:..Q C :: :: Z
                                                                                           Z 4: : I:                              UI :t       U I: C
                       .. .. a: 4: C C u. - .. cz .. Z C 4: 1& C cz - - C 1&       u. Y. C :t x :t C C 1&
                                                                                                                      x cz      a: a: en en en C a:
                       C 4: 4: U U U Q Q II :t - - - x X .. J: J: J: I: Z Z Z Z Z C C                a: en en
                                                                                                                      1&        1& - 4: Y.
                                                                                                                                      :I :I :I :I :)
           ....                     ..                   --
                                                         -- -       ---..     = -.. ..   ..                               ..



                         II 11--                                -n..
                         110 - 0 n N 00.. N 0- 0 0 nCD 0 - n 0 0 0 N 0 - n                        1'         N- N-
                                                                                                                - 0
                                                                                                       00 N 1' N n
                                                                                                                          NII
                                                                                                                                CD -..        0 0




           ..-11.. CI
   000000000000 OONN OCD=OOO 1'0 0 00 0 -0 0 00- -N 0 NO 0
           CI:
           - US..

           UCI C
           1M a:

           L c: Z
           11%­

                         000 = - N  ..N- CD

                                           - 0 -     00 ft -..     11ft   OM N 000 NO            ft.. 1'001'01'
                                                                                                           - -N
CDft.. 0 0 MOO

           UJ CI

           a: II


  en ::    Q) Z
  II a:

! CI CI
           -a:
           J: c:


           1M a:
) U J:     II c:

- 11 I
, l-
IUIZ
I 1: In

1 UJ­
. a: a:

                         0000 ft 
 00000000000 n.. 0000001'00
                                                      CD .. -                                                1'
                                                                                                             CD 0    00" 0 0 0 0 0
  LII      J: CI

:00
. I- I­
           CI II


:  U
,CI 0
           ..0
           CI
J 11       J: Z
I c:
! 11 I
           10­
I :z
  oI
, J: I
           II Z

           1M C

           10 ­

           CI ..:=W
                                     OftN
                         CD 0 - II -.. - 0 ft N OCD -.. 1' n
                    0 0 0
                                                                                         CD -

                                                                                              0 CD N
                                                                                                                -N" -II
                                                                                                       1'0"" N 0 O         tn CD      - tn 0




  Z US
  11 c:
           .. W­

           CI%UJ..
           .. I- C U
  CD Z
           C-a:W
           I- :z .. g




                              IIZC-WII
                                          ..:=CU 81
                              Cla:Clt-a:OCl
                          J:ClUJOClUCZ
                              ZIIa:II:Z ._-ZCI
                                              -C
                                                 a: IC- CI-C

                                                 .CI
                                         CI-OZ IIU-
                                                     ZI-
                                                        Z..I-

                                                        Cl00  CC ccnccw
                                                           cnWU.
                                                          ClLUJ-C    ..a:.W
                                                     ClCCI J:IIXg J:-UClUJ
                                                        II

                                                     r.USZUJClWW
                                                CZ=CDW-WClCI%-'J:%     Q UJ ZZZ
                                                                   ::W::::llcn
                                                                                  COZ
                                                                                CI-a:-
                                                                               "'-O-UJO
                                                                                     ZZZ
                                                                               0-- 0-­
                                                                                                                                 Z-




                          CD UJ CI
                          CI CI 

                                     - 0 Z   CI I- a: CI 

                                             0 :z .. CI
                                     .. .. Z .. UJ      :z Z Z
                                                                CI UJ'" - Z   :: Z I- a:
                                                                 - U Z Z CD :z :z :z II - .. 0
                                                                                                 t- 0 CI ClI-.. Z CI :: J: C %.. U
                                                                                                                 Z x CI a: a: UJ UJ UJ
                                                                                                                                              z: r.
                                                                                                                                              0 It
                                a: cz c c w -
  CI   Z Q CI II 0 CI - - C II II W W 0 :: 0 It:: UJQ           Q II W I- II - CI II
                          CI cz cz U U U CI ClII::               z: z: J: z: Z Z Z Z Z Q                      CD .. t-           :z      :z




                                                                          C-4

                                                              ------ --- --------------------.---
                                                                                               " ---------




                      ACTION BY         GENCV PERSONNEL. AFDr AND HEDICAID CASES
                                         ocrOBrR 1983 - HARtH 1984

                                                                EVIDENCE SUFFICIENT TO SUPPORT A OUESTION

                                                                                 OF FRAUD


                                    EV I DENCE NOT
                                    SUFFICIENT TO

                                    SUPPORT A QUESTION                 CASE     CASE NOT      REFERRAL

 STATE                TOTAL         OF FRAUD                 TOTAL     REFERRED REFERRED      PEND I NO


 ALABAHA

 ALASKA

 ARKANSAS

 CALI FOrtN I A

 COLORADO

 rONNECT leUT

 DELAWARE
 DIST. OF tOLU"BIA

 FLORIDA
 HAWA II

 ILLINOIS
 I NO I ANA

 IOWA                      259                                  238                   152

KANSAS

KENTUCKY

LOUISIANA

MINE

HICHIGAN                   103

HINNESOTA

HONTANA

NEBRASKA

NEW HAHPSHIRE

NEW JERSEY
NEW HEXICO
NORTH DAKOTA

OHIO

OKLAHOHA                     1:S

RHODE I BLAND
SOUTH CAROLINA

BOUTH DAKOTA

TENNESSEE
TEXAS
UTAH
VERMONT
VIROINIA
WASHINOTON
WEST I,'IROINIA
WISCONSIN                 114                                  109
WVOM I NO
V I RO I N 19LANDS

                        1036                         263       773          258       407           110
                  'WN;nN    f"OR NUT' ;':rr . !'" H'" cr, l J ro t\r.EIIC't                nil mwr:,:"            H' r"' lIsn:u".
                           AI" UC t\Nn 'iLl"         Ct\      I0   cr.      - - - ur: WflCii: l' rr'-MflnCIf 1' B 4


                                                                                                                           'JH:r: I ;
                                      Ct\!iE NOT                    GHt\LI. AHOUNTG          F'' I'11'1 II: :;UiFNT         WII Df. HJr
                                     kEFtHRED                       1U\'CJL.\'lU             A'iHf,I-I' .   rl)             IN\.I'I.   \'(0   rnllu(
  r. fr,TE:

  "tArIAHA
  I.LAm"                                                                             1"'
 iUWAN!..,S
 cm. I FW(N I A
 entOIiI\DO

 f.ONNECf . r.UT                                       (,I

     l. AWARE
 D HiT, OF eOl-UNO I 

 FtOR I DA

 HAWA II

 J I.LI NOI S

 INUJANA

 lU'oIA                                        192                                 .,3                              ":7

 I(AN5A9

 f(rNTUCVV

 LOUIf.IIANA

 HAINF

 HI CIH CiAN

 HINNffoOTA
 HONfANA
                                                                                                                                                   I) ,
 NHiRAUVA
 NEW HAMPSHIRE

 NEW JERSEV
 Ni:W HEX leD

NORTH DAI OTA

OHIO

on . AHOHA

ORE BON
RuonE I BLAND
SIlUT.. Ct\ROL INA

SOUTH DAVOTA

TENUI:5SEE
TfXA9
UTAtt
V(' r.-MnN    r
VllrJNJA
Wt\!iHI NGTON
weST v. n'NIA
W I!CON! . N                                                                                                       :'6
I.,VIIH' NI3

V WG' N ISLANDS

                                               407                                                                I:!')                        ' UJ5
                                                                      -'--'--'.------'-'-..'" -- ..                                                                            ,,
                                                                                                            '.. ..._. ...- . ..,... -._"..-. ...--.- ..-,..- -.-- -..... --.-.--.--
                                                                                                                                      : - "'                                                 (.        .... .                        .,
                                                                                                                                                                                                                                  . :!,   .'


                                                      nC' IIO"       II\, !It:UIC\' (MPOtln ro rn r' l:f,!. rr:IJTE :                              ,1

                                               AFm: (\/ID ..InHCIH 0                1'\';E:5 -   0 . U':TIJIU                 '1'0,             mol 1'1(1/1
                                                                                                                                                                   .Jf: 1t' :-l.!("I:,;nIJI- ,.1 ' I joi "
                                                                                                            RI.!' ;U:tlTION         INITH';TI U - U' IHr.Tl1ENtf
                                                                                                                                                             -... ..-.-...-. .._. --0_- .

                                                                                                                                                                                                                   I';!
                                                                                                                                                                                                                 n NI' iNti
                                           Fm::,.                                                                                                         r-d    - TIH AI.                                       I/n: 1:; I fI"
                           PROCECUTION f'Rm;ECUTION                                                                                                       f'm::-('Lr.IGION OTHER                  Ct\liE         Ut, fI:r II'"
STATE                      DECLI NED          D I VE.fcS IONS        TOTAL         COtIV I CTI ON!i Ar.OU 11 TOLS D I 8M I S!JAL D I Vf:RS IONS                                       OUTCOMES PHIIHNG 111 III TAuo

AI /\lAMA
                                                                             1",                      8"1
 I.I\GI' A
                                                                                                                                                                                                           1"1
Am r.NGAr,
CAL I FOI(N I A
COLORAno
CnNNECTlCUT
Dn AWI\RE

OIST. OF COLUMBIA

FLOHIDA
IIAWAII
ILLINOIS
I NO IANA
IOWA
t:ANSAS
HNTUCt'Y
llJUI SIANA
MI\ I NE
M I CH I aAN
MINNESOTA                                                                  I:!                    I:!

MONTANA                                . 0

NfIIRAS.
NEW HI\Mf'SHIRE
NEW JEkSEV

NEW hE'1( I
NIJRTH DAKOTA                                                                I)'
UHIO
01 LI\HOMA
UFcflilJN
tiunm.: ISLAND
f.nltTH CAROLINA                                                                                  I:!
SUUTH ()AfOTA
TENNE!i5EE                                                      I)

TEXAS
                                                                                                                                                                                                                                  20.
UT.'\tI
VERNONT
V I r,B I II 1/\
WII!iH I NIHON 
                                                            II'
WEm I.ml1lNIA
W HiCONS I N
WynN I 1""

v 11m II      I !;LANnS


                                       162                                  :!5                  117                                                                                                                              344
                                                                               :;,..                                               . ,




                                 lirnr:nN rnn (Il n J U ItO !'' nW:U 'H H...
                             OY ' I\n!::NC' ( I:Mr-o!       n,ro rn I"WI"iF:t.:UTC (:,)1:1.
                    AI'DC (\ND HI:   IH en I 0     CI\DH1     - - (Ie rrJDl:t 1 c;.n:.s - tlt. i,r:1I J '1(1 '1


5TnTE	                       TOTI\L CAUES                    st/nlL. nHOIJNTS            f E: : 11::lun:r.1Un     f.I"' r.1 nL      OTHrn
                             WITII                           IN'JOU.'r.O                 In:niiUGtD               t!, r. ";..11:
                             f'r,05F.r.UT r ON                                                                     tN' 'OL\'fD
                             DECL Itr-D


AI. nMHA

At itSrA

Am:ANSAn
CnL I rOliNIA
COI or,nno

t:ONNlCT ICUT
DL:LI\WAHE
DinT. UF COLUMBIA

fLnR I nA
HAWA II

ILLINOIS

 INDIANA

Wi-'A

I' I\NSnS
I:FNJUCI(V
U)U I S II\NA
MA I Nt:

M I CHI RAN

ttl NNEGOT
MONT ANA
Nt: liRA!iI A
NEW HAMPSHIRE

NEW JE SEV
NEW HEX ICD
NORTH DAKOTA

OHIO
OI:LAHOHA
OAEGON
RHODE ISLAND
5DIJTH CI\ROLINA
5U1ln. DA', OTA                                  7'"
TENNESSEE
  XAS
UTAH
V(RHONT
VItU1INIA
Wn!JtlNGTON
WFST VIRGINIA
W 15r.ON!H N

 YUH I NO
"I RU I N 15LANDS

                                                 162
                                                          ------------------------------------------


                  ACT ION BY AI3ENC'f Pf.RSONNEL . (.FDC AND FOD(   iTnMP (:(\5E9
                                   OCTOBER' J9BJ - MARCH 1904
                                                            VIDEII:E BUFF ICIENT TO SUPPORT A QUESTION
                                                                                   OF FRAUD
                              EV I DENCE NOT
                              SUFFICIENT TO

                              SUPPORT A QUESTION                     CASE     CASE NOT           REFERRAL

STATE                TOTAL    OF FRAUD                   TOTAL       REFERRED REFERRED           PENDING


ALABAMA
ALASKA                  IUS                                  105                          98 '
ARKANSAS
CALIFORNIA
COLORADO                137                                 100                          ft9
CONNECTICUT            1212                                1212             737          475
DELAWARE
DIST. OF COLUH81A

fLOR I DA
HAWA II

ILLINOIS

INDIANA                267                      174                                                     14'

IOWA                   964                                  '55                         819            ,:5

KANSAS                 220                                  219                                        :S2
KENTUCKY
LOUISIANA
MA I NE                BOS                                  80B             107'        701
HICHIGAN                119                                                  :S2
HINNESOTA
HONTANA
NEBRASKA
NEW HAMBHIRE
NEW JERSEY
NEW HEX     ICO
NORTH DAOTA
OHIO                  3615                     2B62         BI3
Ot(LAHOI               221                      173                                      3:S
OREGON
RHODE ISLAND           211                                  211             101         110
SOUTH CAROL INA        140                                  138              ;Sl
SOUTH Df\OTA

TENNESSEE
TEXAS                  476                                  429             112         317
UTAH                   140
VERMONT
VIRGINIA               363                      216         147                         127
WASHINGTON            1201                                 1163             161        1002
WEST VIRGINIA                                                                            2:5
WISCONSIN             1262                      141        1119             10:5        867           147
WYOMING
VIROIN IBLANDS


                     11837                     3943        7B94           240B         4893           :S93
  ..-
.:')                                                 q;    - - -                  ..                                                                         ')­
   .. .




                         Om 0 0             0 0 00 NO. -.00 moo 0 - 00 - 0000 n   CD = 
                                   00.0 0

                                                                                                                                                 o- .
0 0
                                                                                                                                                 0-




                A. 0
           oJ - 1&

                         0000-000000000000000000000000000000000.00

           cz
           -en oJ

           u ca Q





                                                                      CD
           1& a: :.

           CI cz Z


                         0-0 ON ON              00.0                  mo 0 0 000 0             0 0 = 0 0 0 0 Om 0 0 NO 0




                UI CI

                a: 1&


  :s m          Q; Z
  .: 0-
  w.            - II
                z: cz


                II a:

                a: cz



  Q cz
  1& z:

  .z  I
   .1 ",
  :i i:
  oJ 0­
                         00- 0 0 0 n 0 0 0-0                    .on 0 0 0           0 0 0 N   00000 non CD 0 0N n                  -0   o. - - - 0 0
                                                                                                                                           NO


                z: CI

                CI&
                oJ :.


 Z I-
 ,j IJ
                if c5
                z:
 ;:C
 cz I
                UI­
 QI
a: UJ

:. 1&

                I- 0
                && a:

                         o CD 0
                            0-
                                    0 0- n N 0 o
                                                                .-0-
                                                           o.o- NOO           -0
                                                                              0 m
                                                                                  0           O 0 0- 00       n 00- -N0              0 O
                                                                                                                                           -0
                                                                                                                                           NQN
                                                                                                                                                Nn           00
IJ U            q; II
                en II

C! CI

Z z:
- cz

oJ I­



:.O
,jO
;JQ


                                    - u 

                                 CDZ 0-11
                         z:czenoCZlJCZ
                                       II
                             cza:cal-a:ocz
                                        ca-oz              ZI-   IDIIIJ
                                                           czoc CQ.ID-CZ
                                                           ID
                                                           -c
                                                                            C oJa:
                                                                enCZ1I QI&%%I&CD
                                                                                IDCZCZI&
                                                                                .UCCD
                                                                                               omZ
                                                                                              CI-a:­
                                                                                            I--m-enm
                                                                                        CD ZZZ:'Zzz
                                                                                                         Cc            !c
                                                                                                                        1I z!
Z cz
                            ZIIa:1&3
                                  - 0 z
                                            .--Zcz UlII-lIZiczI-  a:
                                                                      CD -

                                                                        I- Q
                                                                                    men
                                                                                              z:a:.g

                                                                                            0-- I-0-­
                                      Z oJ ID 03                                                   Urm
                         CD UJ cz            cz I- a: cz   - - cz     en .. - Z
                         cz cz   oJ
                              II cz 0 0 11-       Z Z :: - IJ Z
                                                           oJ CI 3
                                                                Z 0
                                                                             II 0 :: :: Z x
                                                                                          Z CD 3     0 a:
                                                                                                   3 3 a: -
                                                                                                                 m ca I- .. Z cz        z: C!
                                                                                                                                     cz a: a: UI en     en
                         oJ
                         C cz cz IJ IJ U Q call %                     cz 1& 0 cz - - 0 1&111&1& 0
                                                                                  z: z: z: z: z z Z Z Z 0 C Q II a:: 0 0 111&1-11-
                                                                                                                       ID ID .. .. ::
                                                                                                                                                cz 1&-
                                                                                                                                                3 3 3




                                                                                          C-10

                            :g,                       . . ..     --    - -                                           .-.                                         %%%




            QI
            II I      mo­
                                       0 0 ooo 00 0 0 0 N-.o 0 0 0 -0
                                                                             -.N
                                                                                              0 0 0
                                                                                                                 -N
                                                                                                        oom.o 00 -N              m - 0 n              0.0            00

            a. I
            1: I
                      -enuli
                   II Q - Ct
                   u: % U
            Ct I
            %I
                   ua. o
                                                     0.
                                       00000..00.0 no -OONO 0 ONO 0 0                                                  OOOO no 0 -0 0.-- 0
           cr ,             cr 1&
           1: I             U Q,
           .r
           0  II                      00 00 :        O     0 0 00 0 0 ;00 NO 00 0                    000 04000
                                                                                                                                     O0     :0 0            00000
                            II e
                            II U
           II I             :t



                                      om 000 0 NO 000 0                            000 0 0 0 00 00
           ZI             E! CD

                          CDZ
                                                                                                                      -O 0 0 -0            0 00 -. 0               --0     rJ.

           QI
                      -u-
                      II II CD

                       QII
                       , I II

                      "Q, IIQ, Q­
                      II II




 CC"       QI
           II I                       0 OOQo 00 0 0-0                   0 0 0 00 0 - 0 0 00000.000000 -0 -.N 000
 en 1:
           Ct I
 Ut
 II ,.
    .. I
           Z II
           ..
                                      0 0 0 0 0 N 0 0 0 - 0 N 0 0 0 0 0 - 0 0 0 0 0 0'

           .. I
           !i I
                                                                      0 N 0 0 0 0 0                                   00 0 0 0 0 0 0 0 0
IX a.

Y. 0
           II I
           en I
           CI
           .r I
           Q, ,
IX I                                 omoo              o 0 0.0         -mnoO-40 00                                            0 mo.                              .O 0
3,                                                              - - N 

                                                                                                      0-4 N,.O                               -o.n


     tD
     UJ
     t.i

UU

I& Q.

01:
Ct c:
                                          -rJ
                                     0'" 00...00 n                0 CD
                                                               .0 N
                                                                             moo 0 n moo N 0 0'" 4
                                                                                                                 0-. -
                                                                                                                     . 0         . O. NO.
                                                                                                                                                    .0..o N

                                                                                                                                                          -


z.c
-I.                     z CD
       0 0 ooo 0 00 00 mo 0 00 0 0000000                                       0-000 0 0 0 0 0 00 0 0 000
c:%                     I- 0
                     " II"
                     II U CD



                        II ­
                                    00 OO          N..O ..0.0000.                     -.0 0 ooo                  n NO ONN 0 -.                 0    CD,. 0       - 0 0
                       I- a,                                                                                                                        ""N
                       II"
                       In -I


                       i fr

                       CL a




                                    cr CD%O-III.
                                                   -I
                                                  U u   cr
                                                        Ct
                                                           z ccra.ID-c:
                                                        z CtCcr  CD
                                    1:Ctenoc:uc: 0-0% CDU- mca%enCtIlIl
                                       c:IXQ IXO                1:IX
                                                                 -cr    cr mc:
                                                                           0%
                                                                                                           I- Q-cr
                                                                                                                     -m­
                                                                                                                                                     z-
                                                                                                                                                            cr




                                          %I.IXII:I ._-%c:                                                        1: -UQen
                                                                                                                en %%%
                                                                                   tDlI-IICtCt:t..1::t :tOIl:t:tWID
                                    II ID Ct - 0 Z c: .. IX Ct
                                    Ct Ct
                                                                       Ct tD
                                                          0:1 -I Q 3 Z Z
                                                                               - % :t %
                                                                                  - U Z Z
                                                                                               IX
                                                                                                  :I :I :I IX
                                                                                                              0 Ct  0-- 0-­          % c: :t 1: m :t             U 1: m
                                       .J IX Ct 00 II -
                                    cr Ct Ct U U U Q         Ct
                                                        Q 1.:t -
                                                                    %  0  Ct II 0 Ct - - 0 W
                                                                               -I 1: 1: 1: 1: Z %
                                                                                                     1.11 0 :: - ' IX :: 0 0 II II         Ct IX IX en
                                                                                                                                               II - Ct II -

                                                                                                                                                            ID 0 IX
                                                                                                        % % 0 
       0 "    ID CD                       :I 3 :I 


                                                                                                                                                                          I .

                -%..
                 - ;:
                                            - -                                               ..

                                 0000 N 0000.00000                                      .. n 000000                n 00       00- 0 -         0 N 0 0 
     00



                                 0000 Q 00 0               CD 0   0 0 0 0 0 0 0 0 - 0 0 0 0 0 0                        0 0 0 0 0 0 - 0 0 0 N 0 -

                .. Q. 1&

                cr
                U en 0
                WQ;:
                Q.




                                                                                                                    as
                en cr 





                                 o 00 O           NOOOO 0 .00000                           o0e00o                      0 0 ON-Oo--ONO 0 N 00

                a: Q
                :J 1&
       OJ       G: t:

       en I
                wa:

  :: I- ­
  .. 1M ""


  U :J
  1& U a:

  !. U'

                                 000 ONO-OO 0 0 0 0 0 0 0 0-0 0 0 0 0 0 0 ;NO 0                                                   00 000 0             -0 N 0
  o en,:
       a: I­

       4. U     I: Q
  -!EI-I: I0
       QI
  ..Li
  '" 0: I
                J: ;:
                en 

  1& W

  Q:ZCD
    01&
. a: 


  :: 1& 
       en %
            00 0 O           N_O                  .00 OO.-               O 0 0 0 O             n N 0 ONN 0 -..           0
                                                                                                                                                  "'N0..- 0 0
                                                                                                                                                  as

                1&
                en 0
  cur
  en z
                   ­
                        :J 1&

  cr LiI­
  1& t: en              1&­
  a:                   %en..
       G: 0
                c-a:w
                 34.Q




                                 J:CenO
                                 m m
                                         -U
                                         C $ u
                                     mZo-I&"-
                                            Q-OZ lDu-
                                         3 ._-z
                                          .. 00
                                                     c
                                          a:QI-a:oc -C

                                                  :JIDW-I&C
                                             .. Z..Li OJ
                                          - 0 z
                                                             enwu
                                                       %1- CQ.ID-
                                                         I- a:

                                                         C
                                                               Liw
                                                       omzOJ ra:xQ
                                                       cc         as


                                                                J:%   cZ   en
                                                                    :CLi%%LiID
                                                                                CI-
                                                                                -o-enzzz
                                                                               zzz
                                                                               c-- c-­
                                                                 Q 3 Z Z -:J z- U
                                                                                % Z
                                                                                  ZZ          I- a:
                                                                                                  m 3 3 3 a: -
                                                                                                                              Q-C
                                                                                                                       J: -uQen


                                                                                                                 I- 0 cr
                                                                                                                               1&
                                                                                                                                    I- Z cr: r 0 % I- U r t:
                                                                                                                           Li C :J:J Z
                                 .. .. a: cr          - .. cr .. Z 0            - - C
                                                                           cr Li 0                Li W W W C %             a: :
                                                                                                                                          cr a: a: en en OJ c 

                                                                                                                                  c c w W I- W - cr w -
                                         u u U Q a", % - - -                      .. J: J: I: I: Z Z Z Z ZOO 0 a: II OJ I- I- :J                  ;: 3 3 3 3 ;:




                                                                           C-12

                 APPEIX "D"



IlODOLO OF COMPING COST AVOIDACE SAVIGS

FROM FRUD   EAY DETCTION   AN   PRION (FRD)

                                                                                     ------------




                      MEODOLOY OF CO!uU' J.J.G COST AVOIDANCE SAVINGS
                       FRUD EAY DETCTION AN PREION (FRD)
Since the California counties involved    the FRD program                in

include large and small as well as urban and. rural populations
their experiences should translate well to other counties
throughout the Nation.

            Total ' Payment                   Potential
            The numer of AFDC applications received in each quarter of

            fiscal year 1984, the latest year for which complete data 

            available, is multiplied by the average monthly payment per
            family for the respective quarter.
                                                                Average              Total Payment
            Quarter                  Applications         Monthly Payment            Potential
            First                    783, 928                   $317                 $248, 505, 176
            Second                   776, 480                   $324                 $251, 579, 520
            Third                    700, 873                   $319                 $223, 578, 487
            Fourt                    822, 603                   $326                 $268, 168, 578
                      Total                                                          $991, 831, 761
            Fraud Detection/Prevention Rate
            This rate was determined by an analysis of the results of
            21 counties in California that had a Fraud Early Detection
            and Prevention (FRD) program in place during calendar year
            1985. A rate of 5. 33 percent was reached by dividing the
            numer of denials and withdrawals resulting from this
            program by the numer of AFDC applications received by the
            counties in 1985. A second rate of 4. 85 percent was
            determined by excluding the five counties with more than 40
            percent of their total applications being referred into the
            FRD program. The 21 county rate would yield higher
            potential savings, totaling $899, 544,     However, the 16        593.
            county rate is preferred because the high referral rates in
            the five excluded counties are inconsistent with the concept
            of selective referrals based on                       eligibi+i

            intuition. It is this highly selective referral process that
                                                                                 ty worker
            offers a degree of economy and flexibility unlikely to be
            found in automated fraud detection/prevention                             efforts.
                         Denials                                AFDC Applications
                         and Withdrawals                        in 21 Counties             Rate



                                                          D-l
            5, 652                    divided by         106, 075                  33%

            Denials                                      AFDC Applications
            and Withdrawals                              in 16 Counties         Rate
                 888                  divided by         100, 693                  85%

Monthly Cost Avoidance

The total monthly payment potential                             is   multiplied by the

fraud detection/prevention rate.
Monthly Payment                                Rate                        Monthly Cost
                                                                           Avoidance
$991, 831, 761                                     33%                      $52, 864, 633
                         or, using the 16 county rate


Monthly Payment                                Rate                        Monthly Cost
                                                                           Avoidance
$991, 831, 761                                     85%                      $48, 103, 840
Adjusted Monthly Cost Avoidance

Two adjustments of the monthly cost avoidance         must                  figues
be made to reflect subsequent, legitimate eligibility by
individuals whose initial applications are withdrawn or
denied as well as the overlap of the FRD program with the
antifraud requirements of DEFR.

       An HH-funded study of the  Orange County FRD program
       revealed that 17 percent of those excluded from payment
       as a result of FRD subsequently reapplied and became
       eligible.  Accordingly, the monthly cost avoidances must
       be reduced by this percentage of reapplications.
       The DEFR adjustment was  derived from California'
       analysis of denials and withdrawals resulting from the
       FRD program which showed that only 24. 23 percent were
       for income and assets. We have estimated that only half
       of these would be detected through automated Income and
       Earnings Verification Systems (IEVS), based on our
       discussions with staff involved with the FRED program and
       our finding that the active concealment of income and
       assets to avoid automated screening such as those
        required by DEFR is                   increasing. We          have, therefore,
       used a 12. 2 percent reduction factor to eliminate the
        overlap with                  IEVS.


                                               D-2

                                                     -----------




         Monthly Cost Avoidance           Factor      Reductions
           $48, 103, 840                  17%            177, 653
           $48, 103, 840                  12.            820, 565
                                          Total      $13, 998, 218
         Monthly Cost                              Adj usted Monthly
          Avoidance               Reductions        Cost Avoidance

           $48, 103, 840          $13, 998, 218      $34, 105, 622

    Annual Cost      Avoidance
     The average lengt  of a family' s stay op AFDC as used in the
     HHS-funded review of the Orange County program was
     24 months. This same estimate is used here to compute the
     amount of payments that would have been made had the fraud
     not been detected in the preeligibility stage.
     Adjusted Monthly             Average Months   Anual Cost
      Cost Avoidance                      on Aid    Avoidance
     $34, 105, 622                                 $818, 534, 928
This cost avoidance computation does not include the potential
savings resulting from the small percentage (0. 23 percent) of'
applications that would result in payment of a grant, but at a
lower amount than would be the case if not for the FRD program.
Similarly, it does not include the potentially significant Food
stamp savings that would result from the FRD program. The
California experience in the 16 counties alone resulted in annual
savings of approximately $5. 7 million in avoided Food stamp
costs.




                                   D-3

                APPEIX "E"



 REPONSE FROM FAMLY SUPORT ADSTRTION
DRA RERT OAI-04-86-00066, "STATE INTIGATION

 OF FRUD IN TH AID TO FAMLI WI DEPEEN

           CHLDRE (AF) PROG"

                ..-                         .. . ..
                                        .- ...
                                            ....  , ...
                                                 .....    . .




.If
                   '\\E     l 0,. n        Ll:\ ci HUMAN 3 ifViCE.                       anll.y 5upporl.AdlT,"l tratlon



                                                                                             Memora-ndum
               A'J      1 4 19S7
Date:


From:

            Adm in    istrator
            Family Support Administration

Sublec:t:
            OIG Draft Report-- State Investigation of Fraud in the AFDC

            program
 To:
            Richard P. Kusserow
            Inspec tor          General

            We agree wholeheartedly with the basic thrust of tbis report-­
            that we can and mu t work vigorously to reduce fraud in the AFDC
            program. Not only do we have an obligation to do so as stewards
            of the public trust, but also we have an obligat5on to do so

            and punishment.
            because fraud prevention is more cost effective than prosecution


            We are committed to working vigorously to attack fraud, wherever
            found.  However, to make the report more m aningful, I would like
            to bring to your attention some observations on the data in the
            report and the conclusions based on these data.
            Extent of Current Fraud

            The report makes clear that fraud has been defined throu hout
            most of the findin s and recommendations to include unintentional
            mlsrepresentation of                                facts.
                                           This definition was selected because
            definitions of fraud often vary from State to State and within a
            State in different situations"    However, even though the report ' s

                                                     still have reservations

            definition of fraud is made                                  clear,         we

            to whether it is an appropriate one.    Unintentional   client error
            is a problem for which we must   seek: solutions , but in many ways

            it is a different problem than intentional misrepresentation and

            may respond to different approaches. Furthermore, we are

            concerned that using this broad definition of fraud--a definition

            which certainly is broader than that generally used by the public

            or, by lawmakers,:-may r 3ult in readers ' misunderstand ing the

             findings of the report. 

            A second area of concern   is the report s estimate' of fraud as "
            billion dollar problem
                                   ll and projected savings of 5800 million

            from fraud prevention activi ties. We agree that form SSA- 4110

            information is not a perfect measure of the extent of fraud-­

            lar e part because States exercise their discretion    in usin

            varyin definitions of what constitutes fraud and, accordin

            the report , States may be lax in filling out the requested

            information. We currently are working with States to improvp. the

            accuracy and usefulness of the form 4110. However , we bel ieve


                       -. e..     - J        ' 1_.




                                                                                  E-l
                                                             -- 2


                                                          form 4110 and

understates the level of OFA I S concern for uniform reporting.
that the report vastly overstates the problems



are       cot'vinced that th estimates derived from the information
included on these forms is the best available estimate of fraud

(using generally accepted definitions of the term).
We are unable to accept the report s estimate of a billion
dollars a year in fraud , and the complem ntary finding that
savings of $800 million a year could be achieved. We would note
that the interviews from which these estimates apparentlv were

derived do not appear to have been part of a statistically valid

sample or survey. We would further note that the -individuals who

provided this informa tion appear in many instances to be the same

individuals who provide information on the form 4110. Fit'ally.
we would note that neither quality control case audi ts , nor other
research , would s pport figures that  igh for all client error
whether fraudulently intended or not.

Pre-eligibility Fraud Prevention

The reports recommend that regulations be revised to require that
States implement a pre-eligibility fraud detection and prevention
program similar to the Orange Coun ty, Cal iforn ia program as a
condition of State Plan approval. We would caution against
widespread mandatory adoption of such a program based only on the
findings of this demonstration. The savings reported for the
Orange County program may not or cannot be extrapolated safely
the AFDC program in  general.
Specifically, the Orange County demonstration used a pre/post
design which compared the demonstration results, to a prior
situation where very little was done at intake to detect and
investigate possible overpayments. For other jurisdictions. the
AFDC savings achieved under a program like this one would depend
upon the nature and extent of verification procedures existing
prior to implementation of the Orange County    model.For example
States already using other follow-up verification practice could
expect to experience lower savings, or no savings at     all, i
                                                              r the
study s procedures were implemented.     II" fact,
                                                it is concei'\rable
that regulations such as those proposed by the report could
require a jurisdiction to eliminate or dilute a proven pre­
eligibili ty verificationprogram in order to insti tute
potentially less effective activitie     which would be required.
Impact of Quality Control and Federal Leadership

The report contends tha t It
                           tates could face increased sane t ions
(disallowances for excess erroneous spending) if such (fraud)
detection efforts added to the error rate.   We disagree with




                               E-2

                                                         3 -­

thi   conte( ion because the State s error rate is hased on the
accuracy ot H sample ot actual cases reviewed by Quality Control

rev iewers at the State J. evel wi th Federal re-revi ew of a
subsample. Any error, whether resulting from fraud or any other
cause, that is corrected before the review month would not be
counted in the State s error rate. On the other hand, if the
error is not discovered until the State or Federal quality
control reviewer examines the case , the error would be included
in the State s error rate. Thus , aggressive fraud p evention and
detection . increases the likelihood that an error will be found
before a caRe becomes part of a quali ty control sample, when the
reviewer is' likely to find any previously undetect;ed errors 


While we appreciate the report ' s acknowled ing many FSA/OFA
activities to combat fraud, we believe other sections of the
report may lead the reader to underestimate the exte'nt of our
agency s work in this field. In fact, we have been active on, and
supportive of. the Uni ted Coun il on Welfare Fraud. We have usp.d
technology transfer funds to pay for State-to- State vis its
fraud personnel as well as expenses of State fraud personnel
attending training confe  encts.    FSA/OFA also has been a leader
in the field of computerizing the eligibility verification

process (FAMIS) to eliminate errors and has compi led" and  made

available, to States ' informatioT' on " best practices in fraud

prevention and detection. Furthermore. our a gressive error

detection and corrective action activities address ooth client

and agency errors.


 Certainly. we believe more needs to be  done. I   will look into
. the feasibility  of implementing the report s recommendation
 consolidate and increase the visibility of our anti- fraud eff9rts
 in a specific component. The question I will be examining
 whether such a move is an efficient use of resources and
 consistent with our overall program objectives. We will continue
 to work for smooth implementation of the Income Eligibility
 Verification System (IEVS), which accomplishes the goals of the
 report s recommendation for centralized information access.
 also will continue to provide such assistance as we can to States
  in their efforts to control fraud, as the report recommends, and
 to increase ;udicial and public awareness of the significance of
 AFDC fraud and steps taken to combat it. As . for the report '
  recommendation to develop an improved fraud reporting mechanism
  I agree in principle . but, as the report itself indicates. there
                  barriers to such a system.
  are cons iderable                             We will continue the
  efforts described above to improve the timeliness and usefulness
  of the Form 4110, which is des igned to serve that purpose.




                             E-3

.# ,




       Finally, one of my absolute highest priorities as Administratcr
       of FSA is improved administrative efficiency. I  consider fra
       prevention and detection to be an important part of that goa1", so

       I can assure you that FSA will be ever vigilant in our efforts to

       control this problem which thre tens the very integrity of the

       program.


                                              Stanton




                                      E-4

